Audit Report




OIG-07-018
Audit of the Office of D.C. Pensions’ Fiscal Years 2006 and
2005 Financial Statements


December 5, 2006




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               December 5, 2006


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                   Joel A. Grover
                                    Deputy Assistant Inspector General
                                      for Financial Management and Information
                                      Technology Audits

            SUBJECT:                Audit of the Office of D.C. Pensions’ Fiscal Years 2006 and
                                    2005 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2006 and 2005. Under a contract monitored
            by the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ODCP as of
            September 30, 2006 and 2005 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 06-03, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated October 31, 2006 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits, at
(202) 927-5789.

Attachment
DEPARTMENT OF THE TREASURY



District of Columbia Pensions Program
   Fiscal Year 2006 Annual Report
                                                TABLE OF CONTENTS 




PART 1                         MANAGEMENT’S DISCUSSION AND ANALYSIS                                                           PAGE

I.          Introduction 	                                                                                                              1

     A.     Statutory Basis and Responsibilities........................................................................ 1 

     B.     Organizational Structure and Staffing ..................................................................... 1 

II.         Executive Summary 	                                                                                                         2

III.	       Strategic Goals/Objectives                                                                                                  3

    A. 	    Strategic Objectives and Performance Measures..................................................... 3 

    B. 	    Ensure benefit payments are accurate and timely; and optimize the 

            use of secure electronic systems .............................................................................. 9 

     C. 	   Ensure the effective financial management and investment of the 

            Pension Funds in the custody of the Treasury .........................................................16 

  D. 	      Ensure effective management of the organization’s mission ..................................25 

  E. 	      Ensure quality service to annuitants ........................................................................26 

IV. 	       Six Year History of the District of Columbia Pensions Program                                                              29 

  A.        Annuitants ................................................................................................................29

  B.        Investments ..............................................................................................................30 

  B.        Investments (continued)...........................................................................................31 

  C.        Major Spending Categories......................................................................................32 

V. 	        Limitation of the Financial Statements                                                                                     33 

VI. 	       D.C. Retirement Protection Improvement Act of 2004 – Impact on 

            Financial Statements                                                                                                       33


PART 2 	                            INDEPENDENT AUDITORS' REPORTS


PART 3           	                  FINANCIAL STATEMENTS AND NOTES

     A.     Consolidated Balance Sheets ...................................................................................40 

     B.     Consolidated Statements of Net Cost ......................................................................41 

     C.     Consolidated Statements of Change in Net Position ...............................................42 

     D.     Combined Statements of Budgetary Resources.......................................................43 

     E.     Consolidated Statements of Financing.....................................................................44 

     F.     Notes to Financial Statements..................................................................................45


PART 4           	                  SUPPLEMENTARY SCHEDULES

     A.     Consolidating Balance Sheets..................................................................................63 

     B.     Consolidating Statements of Net Cost .....................................................................64 

     C.     Consolidating Statements of Change in Net Position ..............................................65 

     D.     Combining Statements of Budgetary Resources......................................................66 

     E.     Consolidating Statements of Financing ...................................................................67 

F. 	 Consolidating Intra-governmental Balances............................................................68 

G. 	 Investments in GAS Securities – Net By Fund........................................................69 

H. 	 Investments in Nonmarketable Market-Based GAS Securities – Net 

     By Fund and Maturity .............................................................................................70 

I. 	 Administrative Expenses – By Fund........................................................................71 

J. 	 Pension Expense – By Fund ....................................................................................72 

 PART 1

MANAGEMENT’S DISCUSSION 

     AND ANALYSIS 

 FISCAL YEAR 2006 MANAGEMENT'S DISCUSSION AND ANALYSIS 



       Mission Statement:
       The mission of the Office of D.C. Pensions is to implement the Secretary's responsibilities
       under Title XI of the Balanced Budget Act of 1997, Pub. L. 105-33 (111 Stat. 251, 712), as
       amended, by making timely and accurate federal benefit payments associated with the
       District of Columbia retirement programs for police officers and firefighters, teachers, and
       judges.




I.   Introduction
     A. Statutory Basis and Responsibilities
     Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the
     Act), the Secretary of the Treasury (the Secretary) assumed certain responsibilities for
     a specific population of annuitants under the following District of Columbia (District)
     retirement plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’
     Retirement Plan and the Judges’ Retirement Plan. Specifically, the Secretary is
     responsible for administering the retirement benefits earned by District teachers, police
     officers and firefighters based upon service accrued prior to July 1, 1997, and
     retirement benefits earned by District judges, regardless of when service accrued.

     The Secretary’s responsibilities include: (1) making accurate and timely benefit
     payments; (2) investing fund assets; and (3) funding pension benefits. To carry out
     these responsibilities, the Department of the Treasury’s (Treasury) Office of D.C.
     Pensions (the Office) engages in a wide range of legal, policy and operational activities
     in the areas of benefits administration, information technology, financial management
     and administration. The Office coordinates with many District entities and
     stakeholders to administer its responsibilities.

     All benefit payments that are the responsibility of the Treasury under the District
     retirement programs are referred to herein as Federal Benefit Payments. All benefit
     payments to which an individual is entitled under the District of Columbia
     Replacement Plan (pertaining to police officers, firefighters and teachers based upon
     service accrued after June 30, 1997) are referred to as District Benefit Payments.

     B. Organizational Structure and Staffing
     The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
     Human Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for
     Management and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the
     Deputy Secretary to the Secretary of the Treasury.




                                                    1

      The Office structure consists of three functional areas; financial management and
      administration, benefits administration, and information systems. In addition, the
      Office receives support from other Treasury offices, including, in particular, the Office
      of General Counsel and the Procurement Services Division. As of
      September 30, 2006, 21 Treasury positions are funded from the District of Columbia
      Teachers, Police Officers and Firefighters Federal Pension Fund (D.C. Federal
      Pensions Fund) and the District of Columbia Judicial Retirement and Survivors
      Annuity Fund (Judicial Retirement Fund) within the below structure.



                           OFFICE of D.C. PENSIONS

                                           DIRECTOR
                                           DIRECTOR




        Financial Management                Benefits                      Information
          and Administration              Administration                    Systems

                                        Treasury Support Offices: General Counsel & Procurement




      Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Public Debt
      (BPD), Administrative Resource Center (ARC), performs: systems administration and
      hosting for the automated pension/payroll system, accounting, and annuity payroll
      services.

      As of September 26, 2005, the District of Columbia Retirement Board (DCRB) serves
      as the interim benefits administrator for the Police Officers’ and Firefighters’, and
      Teachers’ Retirement Plans. The Office reimburses DCRB for expenses associated
      with administrating the Federal Benefit Payments. Also, as of that date, the Office
      assumed benefit administration responsibility for the Judges’ Retirement Plan.

II.   Executive Summary
      The District of Columbia Pensions Program (the Program) provides successful
      stewardship of the pension funds, high quality benefit administration services and
      effective use of resources through mutually beneficial relationships with our partners at
      the District of Columbia and the Bureau of the Public Debt. In Fiscal Year 2006, the
      Program achieved significant milestones. These include the following:




                                               2

    	 The System to Administer Retirement (STAR), the automated pension/payroll
       system, issued its billionth payment on March 1, 2006.

    	 The annuity payroll team at the Bureau of the Public Debt, Administrative Resource
       Center, processed over 425,000 on-cycle benefit payments through STAR since
       January 2, 2003.

    	 The IT hosting team at the Bureau of the Public Debt ensured that STAR was
       operational 99.9% of the time.

    	 The District of Columbia Retirement Board celebrated its first anniversary of
       performing benefit administration services for the Police Officers’ and Firefighters’
       Retirement Plan and the Teachers’ Retirement Plan.

    	 The Office of D.C. Pensions, with support from the accounting team at the Bureau
       of the Public Debt, Administrative Resource Center, received an unqualified audit
       opinion for the eighth consecutive year.

    	 The Office of D.C. Pensions, working with the District of Columbia Retirement
       Board, made significant progress in the project to upgrade Oracle/PeopleSoft from
       version 8.0 to 8.9 and to enhance STAR to appropriately allocate and record the split
       between federal and District liability.

    In addition to these accomplishments, the Program continued to meet its ongoing
    responsibility to ensure the accuracy and timeliness of benefit payments, and to
    exercise effective financial management and investments of funds. The Program also
    focused on effectively managing the organization’s mission while ensuring quality
    service to annuitants. Section III of Part 1 of this report provides the Program
    objectives along with FY 2006 results and areas of focus for the future.

III. Strategic Goals/Objectives
    A. Strategic Objectives and Performance Measures
    The Office of D.C. Pensions has four strategic objectives that contribute to the
    achievement of two of the Department of the Treasury’s strategic goals.

    Treasury Goal: Manage the U.S. Government’s Finances Effectively

    Office Objectives:
    1.	 Ensure benefit payments are accurate and timely and optimize the use of electronic
        systems.
    2.	 Ensure the effective financial management and investment of the pension funds in
        the custody of the Treasury.




                                             3

Treasury Goal: Ensure Professionalism, Excellence, Integrity, and Accountability in
the Management and Conduct of the Department of the Treasury

Office Objectives:
1. Ensure effective management of the organization’s mission.
2. Ensure quality service to annuitants.

The following table displays the link between the Office’s four strategic objectives and
the two Treasury strategic goals. It also identifies the Office’s measures and results.




                                         4

A. Office of D.C. Pensions (Office) Strategic Objectives and Performance Measures

Fiscal Years 2006 - 2008                                                                                                Fiscal Year 2006
Treasury                   Treasury                Office                 Office                       Office
Strategic Goals            Strategic Objectives    Strategic Objectives   Performance Measure          Results
F4 - Manage the U.S.       F4C - Make              Ensure benefit         Percentage of monthly        STAR made 100% of the benefits payments to
Government’s Finances      collections and         payments are           benefit payments made        annuitants on time. Treasury ensured timely
Effectively                payments accurately     accurate and timely;   to annuitants by the first   availability of funding for $494 million in benefit
                           and on time             and optimize the use   business day of the          payments to 13,528 annuitants and refunded
                           optimizing the use of   of secure electronic   month                        contributions to 74 former active employees.
                           electronic              systems
                           mechanisms                                     Percentage of electronic     The Office pays 92% of 13,528 annuitants by
                                                                          payments made to             direct deposit, a 1% increase over FY 2005.
                                                                          annuitants
                                                                          New annuitant benefit        The District’s calculation error rate identified in
                                                                          calculation error rate       the quality review process increased from 2.82% in
                                                                                                       FY 2005 to 3.54% in FY 2006.

                                                                          Secure electronic            Throughout FY 2006, STAR continued to provide
                                                                          pension/payroll system       accurate, secure and timely processing for 77
                                                                          effectiveness                annuitants under the Judges’ Plan and 13,451
                                                                                                       annuitants under the plans for teachers, police and
                                                                                                       firefighters. The STAR Release 4 project is
                                                                                                       underway to upgrade ORACLE/PeopleSoft from
                                                                                                       version 8.0 to 8.9 and to determine the split benefit
                                                                                                       for the Federal and District portions of an
                                                                                                       annuitant’s payment.




                                                                     5

Fiscal Years 2006 - 2008                                                                                        Fiscal Year 2006
Treasury                   Treasury               Office                 Office                    Office
Strategic Goals            Strategic Objectives   Strategic Objectives   Performance Measure       Results
F4 - Manage the U.S.       F4D – Optimize         Ensure the effective   Financial Statement       KPMG LLP, an independent public
Government’s Finances      cash management        financial              Audit Opinion             accounting firm, rendered an unqualified
Effectively (continued)    and effectively        management and         received from an          opinion on the Office’s Financial
                           administer the         investment of the      independent external      Statements.
                           Government’s           Pension Funds in the   auditor
                           Financial Systems      custody of the         Number of open            KPMG LLP, an independent public
                                                  Treasury               financial management      accounting firm, noted no material
                                                                         material weaknesses or    weakness in the Office’s internal controls.
                                                                         corrective actions
                                                                         Accuracy and              The enrolled actuary, Cheiron, issued a
                                                                         timeliness of actuarial   report as of October 1, 2006, providing all
                                                                         report                    information necessary to meet the
                                                                                                   Department’s FY 2006 audit report
                                                                                                   requirements. The actuarial report also
                                                                                                   included the amount of the deposits to be
                                                                                                   made to the D.C. Federal Pension Fund and
                                                                                                   Judicial Retirement Fund.

                                                                         Percentage of             Of the 138 payments made to vendors,
                                                                         electronic payments       100% were paid using electronic fund
                                                                         made to vendors timely    transfers within 30 days of receipt.

                                                                         Amount saved by           The Office saved $61,961 in FY 2006 by
                                                                         utilizing early payment   meeting the early payment discount
                                                                         discount incentives       incentives.




                                                                 6

Fiscal Years 2006 - 2008                                                                                               Fiscal Year 2006
Treasury                   Treasury               Office                  Office                   Office
Strategic Goals            Strategic Objectives   Strategic Objectives    Performance Measure      Results
F4 - Manage the U.S.       F4D - Optimize cash    Ensure the effective    Accuracy and timeliness  The Office submitted financial information timely to
Government’s Finances      management and         financial management    of internal financial    all required entities, closing its books within three
Effectively (continued)    effectively            and investment of the   reports                  business days each month. The Office’s financial
                           administer the         Pension Funds in the                             approach integrates financial information with its
                           Government’s           custody of the                                   resource planning requirements and uses detailed
                           Financial Systems      Treasury (continued)                             expense reports to manage operations.
                           (continued)                                    Rate of return on        In FY 2006, the rate of return as a percentage of par-
                                                                          investments              valued investments was 4.5% for the D.C. Federal
                                                                                                   Pension Fund and 5.7% for the Judicial Retirement
                                                                                                   Fund.
                                                                          Minimum of two months In accordance with its investment guidelines, the
                                                                          of available cash and    Office maintained adequate cash balances to meet
                                                                          securities               monthly obligations, with no exceptions.
                                                                          Amount replenished to The D.C. Federal Pension Fund was reimbursed
                                                                          the D.C. Federal Pension $6,071,348 by the District for the District’s portion of
                                                                          and Judicial Retirement refunds paid in FY 2001 and FY 2002. The
                                                                          Fund                     D.C. Federal Pension Fund received $880,595
                                                                                                   through debt prevention efforts and received
                                                                                                   $129,085 through debt collection efforts. The
                                                                                                   Judicial Retirement Fund received $5,210 through
                                                                                                   debt collection efforts. In FY 2006, the Office
                                                                                                   resolved the issue of the remaining amount owed by
                                                                                                   judges to the Judicial Retirement Fund, due to past
                                                                                                   District errors in the interest rate for purchase of
                                                                                                   service.
                                                                          Progress toward ending The Office conducted a preliminary review of
                                                                          the Interim Benefits     existing documentation for the final reconciliation.
                                                                          Period and planning for The Office inventoried data, held discussions with the
                                                                          the Final Reconciliation District, and requested specific District payroll
                                                                                                   documents.




                                                                          7

Fiscal Years 2006 - 2008                                                                                                Fiscal Year 2006
Treasury                     Treasury                Office                 Office                     Office
Strategic Goals              Strategic Objectives    Strategic Objectives   Performance Measure        Results
M5 - Ensure                  M5B - Manage            Ensure effective       Percentage of Office       100% of Office employees have a current
Professionalism,             Treasury’s              management of the      employee performance       performance plan and Individual Development
Excellence, Integrity, and   resources effectively   organization’s         and training plans         Plan (IDP) which is consistent with Office and
Accountability in the        to accomplish the       mission                supporting individual      individual goals.
Management and               mission and provide                            employee and Office
Conduct of the               quality customer                               goals
Department of the            service
Treasury
                                                                            Percentage of Office       100% of the Office employees receive quarterly
                                                                            employees receiving        reviews and year end performance ratings.
                                                                            timely performance
                                                                            reviews and feedback
                                                                            Alignment of Office        The Office formalized its structure to ensure an
                                                                            structure to effectively   appropriate level of staffing and focus on all areas
                                                                            accomplish mission         of responsibility. The Office continues to focus on
                                                                                                       an evolving oversight role.
                                                     Ensure quality service Percentage of surveyed     The small sample of annuitants who were
                                                     to annuitants          annuitants who indicated surveyed, indicated that the services provided were
                                                                            satisfaction with the      excellent and that most issues were resolved with a
                                                                            accuracy, timeliness, and single contact.
                                                                            professionalism of service
                                                                            received
                                                                            Quality and timeliness of The Office updated the Police Officers’ and
                                                                            retirement plan            Firefighters’ Summary Plan Description (SPD) for
                                                                            information                replacement in November 2006. The SPD will
                                                                                                       provide up-to-date, accurate and easy to understand
                                                                                                       information about the Retirement Plan. The Office
                                                                                                       dedicated call center fielded annuitant inquiries
                                                                                                       related to Post-56 military service purchases.




                                                                            8

B. Ensure benefit payments are accurate and timely; and
   optimize the use of secure electronic systems

1. Program Results

   a. Benefits Administration

   General Operations

   Benefits administration services are provided to 13,528 annuitants, as of
   September 30, 2006, in three District of Columbia retirement plans: the Police
   Officers’ and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and
   the Judges’ Retirement Plan. The annuitant population within each plan is as
   follows: teachers, 5,805; police officers and firefighters, 7,646; and judges 77.

                                  Judges, 77



                                                     Teachers, 5,805
                  Police/Fire,
                     7,646



   In FY 2006, the average monthly payroll totaled approximately $44 million.
   With oversight and support by the Office of D.C. Pensions (the Office), the
   District of Columbia’s Retirement Board (DCRB) performed benefits
   administration services for the Police Officers’ and Firefighters’ Retirement Plan
   and the Teachers’ Retirement Plan, while the Office performed benefits
   administration for the Judges’ Retirement Plan.

   General operations focus largely on transaction processing and customer service
   activities. On a monthly basis, the transaction processing activities represent a
   variety of activities from processing new retirements and/or survivor benefits, to
   terminating those no longer eligible, and to updating annuitants’ personal and
   benefits information.

   On average in FY 2006, monthly processing in key areas included:

      New Retirements – 23 per month
      New Survivors – 11 per month
      New Beneficiaries/Estates – 19 per month
      Purchases of Service – 14 per month
      Refunds – 32 per month


                                            9

Equally important to transaction processing is customer service. The customer
service team performed a wide range of activities, including resolving annuitant
inquiries.

On average in FY 2006, monthly support from the customer service team
included:

	 Answering Calls – 1,624 per month
	 Servicing Walk-ins – 52 per month

The Office encourages annuitants to receive benefits through direct deposit. By
the end of FY 2006, 90.7% of retired police officers and firefighters or their
survivors, 93.2% of retired teachers or their survivors, and 94.8% of retired judges
or their survivors received their monthly benefit payments by direct deposit.

                                        Direct Deposits
          100%



           95%
                                                              94.8
                                            93.2                     2005
                                 92.1
                                                                     2006
           90%           90.7                         90.5
                  90.0



           85%



           80%
                  Police/Fire     Teachers                Judges



In FY 2006, a variety of outreach efforts provided accurate and timely
information to annuitants, including:

	 Letters notifying annuitants when their benefits changed
	 Earning Statement messages alerting annuitants to changes (such as a cost-of
   living adjustment) or opportunities (e.g., signing up for direct deposit)
	 DCRB newsletter (which provides important plan information for active and
   retired police officers, firefighters and teachers)
	 Special correspondence, which provide annuitants with detailed individual
   information when a unique change has occurred (e.g., recalculations due to
   the police officers’ collective bargaining agreement)

Quality Review

Each month the DCRB Quality Assurance Specialist reviewed new retirement and
survivor cases, and new qualified domestic relation orders (QDRO) processed by


                                             10 

the analysts. The Specialist provided the DCRB analysts with feedback to ensure
accuracy and assess training needs for the staff. Also, each month the Office
performed quality assurance reviews on a statistical sample of new retiree and
survivor cases and QDROs. The Office provided appropriate feedback to the
benefits administrator. The error rate identified in the Office’s review process in
FY 2005 was 2.82%. In FY 2006, the first year of new retiree processing in the
System to Administer Retirement (STAR) and by DCRB, the error rate increased
to 3.54%.

Special Projects

Implementation of Legislation Regarding Post-1956 Military Service Purchase

The District of Columbia Military Retirement Equity Act of 2003, 

Pub. L. 108-133, was enacted on November 22, 2003. This legislation allows 

D.C. Police Officers’ and Firefighters’ Retirement Plan members to purchase
retention of credit for military service performed after December 31, 1956
(Post-56). Members who purchase such credit avoid a benefit reduction when
they reach social security full retirement age and eligibility. In FY 2004, the
Office focused mainly on the population who had already reached social security
full retirement age and received a benefit reduction, or were nearing social
security full retirement age. Approximately 280 annuitants completed their
purchase of service in FY 2004, and where applicable, had their annuities
restored. In early FY 2005, the Office began focusing on the remaining retired
population of approximately 4,000 annuitants. In FY 2005, approximately 375
additional annuitants completed their purchase of service and deposited
approximately $160,000 into the D.C. Federal Pension Fund. Annuitant
communication and purchase activities continued in FY 2006. As a result,
approximately 550 additional annuitants completed a purchase of service and a
total of approximately $268,000 was deposited into the D.C. Federal Pension
Fund. The Office estimates that approximately 600 annuitants (depending on
their eligibility for social security benefits) may still need complete a purchase of
service. At the close of FY 2006, the Office ended its two year Post-56 related
outreach effort and direct processing of purchase of service requests. Future
Post-56 communications and service purchases will be handled by DCRB as part
of regular processing.

The Office continues to work with DCRB to ensure appropriate procedures
remain in place to: (1) advise the active and retired populations of the legislation;
(2) process requests for purchases of service; and, (3) ensure the transfer of
Federal deposits to the D.C. Federal Pension Fund.

Collective Bargaining Agreement (Police Officers)

On June 7, 2005, the D.C. Council approved annual pay increases for active
police officers retroactive to October 2003, as contained in a collective bargaining



                                         11 

agreement. These increases have an impact on two different populations of
retired police officers. First, the level of pay increases for active police officers
determines the level of annual retirement benefit increases applicable for police
officers who retired prior to February 15, 1980. Approximately 1,000 retirees in
this population were entitled to an “equalization” adjustment and retroactive
payments attributable to the 2003, 2004 and 2005 pay increases. The Office
implemented these adjustments in the September 1, 2005 annuity payments and
made retroactive payments in the September 1, 2005 and October 1, 2005
payments.

Second, because the collective bargaining agreement provided for pay increases
retroactive to October 1, 2003, the annuities for approximately 130 police officers
who retired after October 1, 2003 were recalculated to account for changes in the
retirees’ final average earnings. In addition, retroactive benefits had to be
calculated for these annuitants. The Office completed this recalculation and
retroactive payment effort in November 2005.

In addition, the beneficiaries and estates of deceased officers who were eligible
for the increase also received retroactive payments. These payments were
processed between July and September 2006 as the individuals were identified
and located.

Judges Purchase of Service

The Office previously determined that the District had used incorrect methods to
calculate the interest cost for judges to purchase credit for non-judicial service.
Since October 2001, at the Office's direction, active judges who initiate a
purchase of service pay the correct amount of interest. In FY 2004, active judges
who had paid incorrect amounts for purchases of service prior to October 2001
received notices for the amounts owed. At the end of FY 2004, judges owed
amounts totaling, in the aggregate, approximately $820,000. In FY 2005, the
amount owed was reduced by approximately $465,000 as a result of judges
making payments or accepting actuarial reductions in their annuities. In FY 2006,
the Office resolved the issue of the remaining amounts owed by the judges.

b. System to Administer Retirement

The System to Administer Retirement (STAR) is the automated pension/payroll
system developed by the Office, in cooperation with the District, to replace the
District’s legacy system. STAR supports the end-to-end business processes for
retirement, streamlines the administration and payment of pension benefits to
annuitants, and enhances customer service. STAR enables pension analysts to
quickly access information and provide annuitants with real-time customer
service.




                                          12 

STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human
resources, pensions, and payroll administration. The Office implemented
Release 1 of STAR in December 2002 to serve all annuitants of the Judges’
Retirement Plan. The Office implemented Release 2 of STAR in September 2003
to serve teachers, police officers and firefighters who retired on or before
June 30, 1997, and their survivors. Release 3 of STAR, which supports
annuitants who retired on or after July 1, 1997, including newly retired teachers,
police officers and firefighter retirees, and their subsequent survivors, was
deployed in August 2005.

STAR Systems Security

The STAR system received full security certification and accreditation (C&A) in
January 2003. The C&A was completely updated in August 2004 when the
Office made a major change to the technical environment. We plan to update the
C&A in FY 2007 to comply with the Federal requirement for completing updates
at least every three years.

STAR Business Continuity Plan

An annual test of the System to Administer Retirement (STAR) Business
Continuity Plan was conducted in June 2006. The exercise included staff
members from the Office, the Bureau of the Public Debt as the STAR system
administrator and payroll services provider, and the DCRB as the benefits
administrator. This year’s exercise consisted of shutting down the production
servers and re-establishing the production environment at the disaster recovery
backup facility. The users were instructed to redirect their access to the backup
site and run through a scripted exercise designed to test a variety of business
processes. All processes were executed. At the conclusion of the test, normal
production was restored. The test was successful and the team captured several
lessons learned that will help to strengthen the plan.

STAR Release 4 – Planned Implementation in June 2007

In FY 2006, the Office and DCRB continued to develop and enhance STAR. The
decision was made to upgrade the Oracle/PeopleSoft version from 8.0 to 8.9,
because the vendor will stop supporting this version of the software in the middle
of calendar year 2007. As a result, STAR would no longer benefit from vendor
provided tax updates and other critical enhancements.

In FY 2006, the Office worked with the DCRB to complete planning and analysis
of alternatives for the design, development and implementation of the
functionality to calculate the split benefit between federal and District liabilities
(i.e., the Split Benefit). Split benefit calculations are complex and will be based
on a detailed set of regulations published by Treasury in December 2001. The
office decided to implement the split functionality in relation to the STAR



                                         13 

   Releases. The first group will cover new annuitants; subsequent work will cover
   annuitants who were previously brought into STAR.

   In April 2006, the Office and DCRB decided to merge the Upgrade and Split
   Phase 1 effort into a single project which is referred to as Release 4. DCRB staff
   will participate in major activities such as design review and testing. As we
   learned in Release 3, the inclusion of District staff in the system development
   process is expected to improve significantly the users’ understanding and
   readiness for deployment. The cutover to Release 4 is planned for June 2007, to
   generate the payments made in July 2007.

   Change Control Board

   The Office established the STAR Change Control Board (CCB) in FY 2002 as the
   approving authority for all system changes. The CCB evaluates the costs,
   benefits, and risks associated with any proposed change, and prioritize the work
   relating to approved changes. The CCB process enhances accountability and
   internal controls. During FY 2006, the CCB reviewed seven change requests and
   approved six. The CCB also monitors the progress of previously approved
   change requests to ensure that resources are applied to the highest priority work
   and that progress is acceptable. The major change requests approved in FY 2006
   related to the Upgrade to Oracle/PeopleSoft 8.9 (one for the planning phase and
   one for execution), and the Split Benefit (also one for planning and a second for
   execution). Other change requests addressed efforts such as the upload of Post-56
   Military Service data and the upgrade of hardware to support STARBase, STAR’s
   documentation repository.

2. Future Focus

   a. Benefits Administration

   Collective Bargaining Agreement (Teachers)

   In July 2006, the District of Columbia teachers signed a new labor agreement that
   is retroactive to October 2005. The agreement will be implemented for the
   impacted retiree population in early FY 2007. The implementation will include a
   retroactive payment to all impacted annuitants, recalculation of the annuity
   payment for all impacted retirees who retired since October 2005, and when an
   impacted annuitant is deceased, beneficiary and/or estate payments to the
   designated individuals.

   End User Training

   During FY 2006, STAR training development and delivery was provided by the
   STAR systems integration contractor as a part of the overall system development.
   In FY 2007, the Office will plan and execute the transition of those



                                           14 

responsibilities to its Benefits Administration team. Also in FY 2007, the Office
will partner with DCRB to begin the design and development of a training
program to address retirement plan knowledge as a complement to the STAR
training program.

b. System to Administer Retirement (STAR)

Release 4

Release 4 is targeted for deployment in June 2007. This system enhancement will
upgrade the system software and enable STAR to appropriately allocate and
record that portion of an annuitant’s benefit that is the Federal government’s
responsibility and that portion that is the District’s responsibility.

Split Benefit Phases 2 and 3

Phase 1 of the Split Benefit project will be deployed as an integral part of the
Release 4 project described earlier. It will calculate and record the split for future
payments to those annuitants who will be brought into pay status beginning in
June 2007. There are two other groups of annuitants for whom split functionality
needs to be applied. Phase 2 of the Split Benefit project will calculate the split for
future payments to annuitants whose initial retirement processing took place in
STAR between August 2005 and June 2007. Phase 3 will calculate the split for
the future payments to annuitants whose initial retirement processing took place
in the District’s legacy system, PAPS or Pension Administration and Payroll
System. This group of annuitants was converted to STAR in August 2005. The
difference between the groups covered by Phase 2 and 3 is that all the relevant
data for the split for the Phase 2 population is already recorded in STAR whereas
an analysis of historical data will be needed to determine the split for the Phase 3
population.

The Office plans to complete planning and begin execution of both Phases 2 and 3
in FY 2007.

Technical Production Support and Hosting

Technical production support and hosting for STAR is performed by Treasury’s
Bureau of the Public Debt (BPD), Administrative Resource Center (ARC). Since
September 2003, ARC staff members have led production support activities,
including: routine computer operations, application and database administration,
help desk operations and problem resolution. In FY 2007, the Office plans to
complete the knowledge transfer from the system integrator to ARC. This will
ensure that the ARC staff members have a solid understanding of the STAR
requirements, design, configuration management and system operations and
maintenance.




                                          15 

C. Ensure the effective financial management and investment
   of the Pension Funds in the custody of the Treasury

1. Program Results

   a. Pension Funds

   The Office of D.C. Pensions (the Office) administers Federal Benefit Payments
   through two funds:

   	 The District of Columbia Teachers, Police Officers, and Firefighters
      Federal Pension Fund (D.C. Federal Pension Fund) makes Federal Benefit
      Payments and pays necessary administrative expenses for the Police Officers’
      and Firefighters’, and Teachers’ Retirement Plans. The D.C. Federal Pension
      Fund is not a typical pension fund in that it does not receive employee and
      employer contributions. The sources of funding for the D.C. Federal Pension
      Fund are: an annual payment from the District of Columbia Retirement Board
      (DCRB); an annual federal payment amortizing the unfunded liability
      assumed from the District and any additional liabilities; and interest earned on
      investments.

   	 The District of Columbia Judicial Retirement and Survivors Annuity
      Fund (Judicial Retirement Fund) accumulates funds to finance Federal
      Benefit Payments and necessary administrative expenses of the Judicial
      Retirement Plan. There are three funding sources for the Judicial Retirement
      Fund: employee contributions; an annual federal payment amortizing the
      unfunded liability assumed from the District and any additional liabilities; and
      interest earned on investments.

   b. Actuarial Valuation

   In FY 2006, the Office contracted with Cheiron to perform the annual actuarial
   valuation.

   As estimated by the actuary, as of October 1, 2006, the Federal government’s total
   liability for Federal Benefit Payments under the Police Officers’ and Firefighters’,
   and Teachers’ Retirement Plans is approximately $9.0 billion. Of the $9.0 billion
   actuarial liability, approximately $3.8 billion is funded by existing assets of the
   D.C. Federal Pension Fund and $5.2 billion is unfunded.

   Cheiron determined an actuarial total liability for the Judges’ Retirement Plan as
   of October 1, 2006, of $139.9 million. Of the $139.9 million actuarial liability,
   approximately $115.9 million is funded by existing assets of the Judicial
   Retirement Fund and $24.0 million is unfunded.




                                           16 

c. Receipts and Investments

The pension funds summary for FY 2006 and FY 2005 are set forth in the tables
below. Investments are valued at cost, adjusted for unamortized premiums and
discounts, if applicable. The premiums and discounts are recognized as
adjustments to interest income, utilizing the effective interest method.



              Pension Funds FY 2006 Financial Highlights ($ millions)
                                D.C. Federal         Judicial
             FY 2006                                                Total
                                Pension Fund     Retirement Fund
    Receipts:
       Interest                       $201.8                $6.0         $207.8
       Reimbursement from
       DCRB                            $22.2                $0.0            $22.2
       Deposits from
       General Fund                   $285.4                $7.4         $292.8
       Deposits/Contributions
       from Plan Participants           $0.0                $0.7             $0.7

    Net Investments                  $3,707.8             $113.9        $3,821.7




              Pension Funds FY 2005 Financial Highlights ($ millions)
                                D.C. Federal         Judicial
             FY 2005                                                Total
                                Pension Fund     Retirement Fund
    Receipts:
       Interest                        $180.4                $5.4         $185.8
       Reimbursement from
       DCRB                             $16.2                $0.0           $16.2
       Deposits from
       General Fund                    $277.0                $7.0         $284.0
       Deposits/Contributions
       from Plan Participants            $0.0                $0.6            $0.6

    Net Investments                  $3,762.5              $107.4       $3,869.9


Treasury Securities

Each fund is invested in non-marketable Treasury securities, as required by law.
The Bureau of the Public Debt (BPD) invests the assets of the pension funds
based on investment guidance from the Office. The Office follows a “ladder”
approach, scheduling maturities in amounts sufficient to meet the obligations
projected by annual actuarial valuations. Investment policy in the pension funds
strikes a balance between ensuring the Office can meet short-term obligations,
and extending the ladder. In FY 2006, the cash balance available for


                                          17 

contingencies was targeted not to fall below approximately two months of
obligations ($92 million). The Office invested cash balances in one-day
certificates, except for an un-invested balance of $250,000 at month end, to cover
unanticipated withdrawals on the last day of the month.

Deposits (Warrants, Interest, District Benefit Reimbursements and Judges
Employee Contributions)

Warrants

As required by the Act, Treasury makes annual payments from the General Fund
of the Treasury to the Judicial Retirement Fund and the D.C. Federal Pension
Fund to amortize the original unfunded liabilities of the retirement programs
assumed by the Federal government over 30 years, the net experience gains or
losses over 10 years, and any changes in actuarial liabilities over 20 years; and for
amounts necessary to fund covered administrative expenses for the year. The
annual payment to the Judicial Retirement Fund also includes an amount
necessary to fund the normal cost of the retirement program. Consistent with the
Act, these deposits are made in September each year and are invested in non
marketable Treasury securities with maturities consistent with the expected
payment dates of the pension liabilities. In FY 2006, $285.4 million was
deposited into the D.C. Federal Pension Fund and $7.4 million into the Judicial
Retirement Fund. In FY 2005, $277 million was deposited into the D.C. Federal
Pensions Fund and $7 million was deposited into the Judicial Retirement Fund.

Interest

In FY 2006, the Office received $201.8 million of interest ($156.8 earned) in the
D.C. Federal Pension Fund and $6.0 million ($5.9 million earned) in the Judicial
Retirement Fund. The rate of return in FY 2006 for the Office’s pension funds
was 4.5% for the D.C. Federal Pension Fund and 5.7% for the Judicial Retirement
Fund. In FY 2005, the Office earned interest of $180.4 million ($163.8 earned) in
the D.C. Federal Pension Fund and $5.4 million ($5.6 earned) in the Judicial
Retirement Fund. The rate of return in FY 2005 for the Office’s pension funds
was 4.7% for the D.C. Federal Pension Fund and 5.7% for the Judicial Retirement
Fund. The rate of return is calculated by dividing interest earned from
Government Account Series (GAS) securities by the average par value of
Investments in GAS securities. Interest earned from GAS securities includes the
amortization of premiums and discounts.

District Benefit Reimbursements

Because STAR currently does not have the capability to calculate split benefit
payments, Treasury initially funds all benefit payments under the Police Officers’
and Firefighters’, and Teachers’ Retirement Plans. Pursuant to the Memorandum
of Understanding Concerning Interim Benefit Administration of Retirement



                                         18 

Programs (September 26, 2005), the District reimburses the D.C. Federal Pension
Fund annually for estimated District Benefit Payments made by Treasury for the
prior fiscal year. In January 2006, the District of Columbia Retirement Board
(DCRB) reimbursed Treasury $22.2 million for the estimated District Benefit
Payments made in FY 2005 by Treasury on the District’s behalf.

In January 2007, DCRB will reimburse Treasury for the estimated District Benefit
Payments made by Treasury on the District’s behalf during FY 2006. The DCRB
actuary determines the reimbursement amount. At this time, based on an actuarial
valuation as of October 1, 2006, the Office’s actuary estimates the amount of the
reimbursement to be $28.1 million. This process will remain in place until
July 2007 when the DCRB agrees to reimburse Treasury for a monthly estimate.

Judges’ Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement
Fund to pay for part of the cost of their retirement benefits. Active judges who
elect a survivor annuity contribute an additional 3.5% of salary. Active judges’
contributions to the retirement fund in FY 2006 totaled approximately $590,000.
Retired judges who elected a survivor annuity are required to contribute 3.5% of
retirement salary. In FY 2006, retired judges contributed approximately $126,000
to the retirement fund.

d. Collections

Refund Reconciliation Project

The First Amended MOU (September 28, 2000) required Treasury to pay the total
amount of refunds of employee contributions during the interim benefits period.
On February 1, 2005, Treasury entered into a MOU with the DCRB and the
District of Columbia’s Office of Pay and Retirement Services (OPRS) concerning
refunds of employee contributions under the Police Officers’ and Firefighters’,
and Teachers’ Retirement Plans. In addition to agreeing to fund amounts paid on
and after February 1, 2005 in accordance with the respective statutory
responsibilities (i.e., refunds of contributions deducted from employee salary on
or before June 30, 1997, are a federal liability and refunds of contributions
deducted after June 30, 1997, are a District liability) the District also agreed to
reimburse Treasury for that portion of refunds paid by Treasury prior to
February 1, 2005 that represents contributions deducted and withheld from an
employee’s salary or deposits after June 30, 1997. In FY 2005, the Office began
reconciling all refunds made prior to February 1, 2005 resulting in the District
reimbursement of $9.3 million for FY 2003 through February 2005. In FY 2006,
the District paid Treasury $6 million for its share of the refunds paid from
FY 2001 and FY 2002. Also in FY 2006, the Office established a $3 million
receivable for FY 1998 through FY 2000.




                                        19 

                                             Refund Reconciliation Project

             $7


             $6


             $5

                                                                                                        Treasury
  Millions


             $4                                                                                         District
                                                                                                        Total Refunds
             $3


             $2


             $1


             $0
                   1998      1999      2000      2001      2002       2003    2004      2005*

             *Fiscal year 2005 includes refunds paid from October 1, 2004, through February 15, 2005.
             Note: Fiscal Years 1998 through 2000 are estimates.



Debt Collection

During FY 2006, the Office pursued debt prevention and collection efforts
working with the annuity payroll team at the Treasury’s Bureau of the Public
Debt (BPD), Administrative Resource Center (ARC), which manages the debt
collection process for the Office. In FY 2006, debt prevention efforts ensured that
a total of $880,595 was immediately recovered upon timely notification of an
annuitant’s death or in cases of payment errors. Through debt collection efforts
$134,295 was collected through offsets, lump sum payments or installment
payments.

e. Financial Operations

Oracle Federal Financials (ORACLE)

Pursuant to a reimbursable services agreement ARC performs accounting services
using Oracle Federal Financial (ORACLE) for the Office. ORACLE is a core
financial management product used to process all financial transactions. The
Office’s transactions are entered into ORACLE both manually and via custom
interfaces from ancillary systems. PRISM and GovTrip are feeder systems the
Office uses that interface with ORACLE. ARC provides a report writer package
called Discoverer which allows the Office to create various accounting reports.

3-Day Close

Since April 2001, the Office has closed its books each month within three
working days. The Office has been rated green (the highest rating) since


                                                               20 

February 2002 for all data quality checks on the monthly data quality scorecard
maintained by Treasury’s Office of Accounting and Internal Control.

Prompt Payment

The Office paid 100% of the 123 invoices received within the timeframes
required by the Prompt Payment Act and OMB Circular A-125.

Electronic Vendor Payments

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and
the Financial Management Service encourage Federal agencies to use electronic
payments. In FY 2006, the Office paid 100% of the 138 vendor payments, which
include invoices and travel reimbursements, by electronic funds transfer. Of the
138 payments, 80% were by EFT and 20% by credit card.

Vendor Payment Discounts

The Office’s systems integration contractor offers an early payment discount as
an incentive to make payments in less than the 30 days prescribed in the Prompt
Payment Act. The discounts are:

   1% for payment within 10 days of the invoice date
   1/2% for payment within 20 days of the invoice date

As a result, the Office saved $61,961 in FY 2006 by making payments within 10
days of the invoice date.

Administrative Expenses

The Office funds all administrative expenses to support the federal responsibilities
under the retirement programs under the Act from the D.C. Federal Pension Fund
and the Judicial Retirement Fund. When administrative expenses related to
activities that benefit all of the retirement programs occur, expenses are allocated
99% to the D.C. Federal Pension Fund and 1% to the Judicial Retirement Fund.
When expenses benefit only one group or the other, or when a different allocation
is clearly appropriate, expenses are charged accordingly.

In FY 2006, administrative expenses were approximately $17.2 million for the
D.C. Federal Pension Fund and $1.2 million for the Judicial Retirement Fund, for
a total of $18.4 million. In FY 2005, administrative expenses were approximately
$18 million for the D.C. Federal Pension Fund and $1.5 million for the Judicial
Retirement Fund, for a total of $19.5 million. Administrative expenses in
FY 2006 as compared to FY 2005, decreased by $1.1 million primarily due to a
decrease in contractual costs.




                                        21 

The major administrative expenses of the D.C. Pensions Program resulted from
reimbursement of DCRB benefit administration and support function expenses,
Treasury staff salaries and benefits, and vendors engaged by the Office to provide
IT systems development and support of benefits administration activities.
Pursuant to a Memorandum of Understanding with DCRB, the reimbursement in
FY 2006 also included expenses for a portion of costs DCRB incurred in
anticipation of the transfer of benefit administration responsibilities from the
District’s Office of Pay and Retirement Services (OPRS) to the DCRB.

Certain costs of the System to Administer Retirement (STAR) pension/payroll
system for hardware, software, and system development were capitalized as
equipment and internal use software. The Office has been amortizing -- since
January 2003 in the Judicial Retirement Fund and since September 2003 in the
D.C. Federal Pension Fund -- direct costs incurred to develop STAR. Capitalized
costs in the D.C. Federal Pension Fund and Judicial Retirement Fund will be
amortized monthly on a five-year schedule.

Expense Reimbursement

As of September 26, 2005, the DCRB assumed interim benefit administration
responsibilities for the Police Officers’ and Firefighters’ Retirement Plan and the
Teachers’ Retirement Plan. The Office and the DCRB developed a methodology
for allocating costs incurred by both entities in administering District and Federal
Benefit Payments. The methodology includes consideration of: (1) the number of
active employees, 100% federal annuitants and split annuitants; (2) the estimated
DCRB resources needed to support these populations; and (3) the number of
employees throughout DCRB who are dedicated to supporting the benefits
administration function. Applying this methodology, the Office and the DCRB
entered into a cost sharing agreement for reimbursement of FY 2006 actual
expenses. Pursuant to the agreement, Treasury will reimburse the DCRB
approximately $2.3 million for FY 2006 expenses in administering Federal
Benefit Payments. DCRB in turn will reimburse the Office approximately
$1.7 million for the Office’s expenses in developing and operating STAR to
administer District Benefit Payments.

f. Financial Statement Audit Opinion

KPMG LLP (KPMG), an independent public accounting firm, rendered an
unqualified opinion on the Office’s FY 2006 financial statements. This is the
eighth consecutive year that the Office’s financial statements have received an
unqualified opinion.




                                         22 

   KPMG noted no material weaknesses in the Office of D.C. Pensions internal
   control over financial reporting. Also, the results of KPMG’S tests of compliance
   with laws and regulations disclosed no instances of noncompliance or other
   matters that require reporting under Government Auditing Standards or OMB
   Bulletin No. 06-03.

   g. Implementation of OMB Circular A-123 Revisions

   The Office worked with the Treasury’s Chief Financial Officer’s Internal Control
   Working Group to develop guidelines for implementing the requirements of
   revised OMB Circular A-123. The Office used this guidance to conduct a review
   of internal controls over financial reporting. Staff members at Treasury’s Bureau
   of the Public Debt (BPD), Administrative Resource Center (ARC) and the Office
   conducted tests by either inspection or use of the ARC SAS 70 review.

   The Office conducted its assessment of the effectiveness of internal controls over
   financial reporting, which included safeguarding of assets and compliance with
   applicable laws and regulations, in accordance with the requirements of
   Appendix A of OMB Circular A-123. Based on the results of this evaluation, the
   Office provided reasonable assurance that its internal control over financial
   reporting was operating effectively and no maternal weaknesses were found in the
   design or operation of the internal control over financial reporting. The scope of
   the assessment was limited to the Treasury-designated material consolidated
   financial statement lines and internal financial reports produced for the Office.
   The Office provided a compliance statement reflecting an unqualified assurance
   as of June 30, 2006.

2. Future Focus

   a. End Interim Benefit Period/Final Reconciliation

   Title XI of the Balanced Budget Act of 1997, as amended, states that the interim
   benefits period began on October 1, 1997, and ends on the date Treasury notifies
   the District that a trustee or Treasury will assume the duties of benefits
   administrator. With respect to the retirement plans for teachers, police officers
   and firefighters, Treasury will not end the interim benefits period until STAR is
   enhanced to calculate the split between federal and District liability for
   post-June 30, 1997 retirees and their survivors.

   In FY 2006, the Office conducted a preliminary review of existing documentation
   for the final reconciliation. Treasury inventoried data, held discussions with the
   District, and requested specific District payroll documents. In FY 2007 Treasury
   will continue planning for the final reconciliation. After the STAR project to
   calculate split benefits has been implemented, the Office will end the interim
   benefits period for the retirement plans for District teachers, police officers and
   firefighters. The Office will then work with the District to conduct the final


                                           23 

reconciliation, accounting for transactions during the interim benefit period. The
final reconciliation will include, among other things, an accounting of the
amounts related to Federal and District responsibilities for benefits paid to plan
members who retired after June 30, 1997.

In Section 10 of the First Amended MOU (which remains in full force and effect
under the terms of the new MOU executed in September 2005), the Treasury and
the District agreed on the approach and requirements of the final reconciliation.
The major requirements are that: (1) the District and DCRB provide audited
reports of their transactions affecting the retirement funds during the interim
benefits period; and (2) the Treasury calculates split benefit payments for plan
members who retired during the interim benefits period and reconciles these
payments with amounts actually paid by the District to Treasury during the
interim benefits period. The final reconciliation will identify amounts owed to
Treasury by the District and vice-versa.

b. Split Benefit Calculation
Beginning in June 2007, Release 4 functionality will enable STAR to calculate
the split for future payments to those annuitants who will be brought into pay
status as of that date. Also in FY 2007 the Office will begin planning for STAR
to calculate the split for the two remaining groups of annuitants. This will enable
STAR to appropriately allocate and record the portion of an annuitant’s benefit
which is the Federal government’s responsibility and the District’s responsibility.

As part of Release 4, the Office is developing new split monthly reports that will
identify at the annuitant level the Federal and District portions of the total annuity
paid each month. The DCRB finance staff will have “read only” access to data
and reports generated by STAR, to review details of the new split monthly reports
when Release 4 is deployed. In the future, these reports will support the actual
payment the District will make to Treasury each month.

c. Monthly District Benefit Payments
Beginning in July 2007, the DCRB will reimburse Treasury monthly for the
District Benefit Payments. The monthly amount will be 1/12 of the estimated
District liability for FY 2007. In December 2006, Treasury will project the
District liability for FY 2007 based on the liability that the District actuary
certifies for FY 2006. The DCRB will make payments in July, August,
September, and October of 2007 for the annuitant payroll earned in the previous
month. In December 2007, the District actuary will certify the District liability
for FY 2007 benefit payments. In January 2008, the DCRB will pay Treasury the
amount certified for FY 2007 minus the total of monthly payments made for
FY 2007. Once STAR is able to calculate and record the split, DCRB will pay
Treasury monthly for actual District Benefit Payments.




                                         24 

D. 	Ensure effective management of the organization’s
   mission
1.	 Program Results

   a. 	 Employee Performance and Training

   The Office of D.C. Pensions (the Office) managers worked with each employee to
   achieve the Office’s and individual goals through frequent performance feedback,
   training and development. Management conducts quarterly performance reviews
   with each employee. Each employee has an Individual Development Plan, which
   is monitored throughout the year. All employees participate in required and
   optional training. Opportunities for employee development play an important role
   in decisions on allocation of work assignments.

   b. Organizational Structure

   In FY 2006, the structure of the Office was formalized to ensure an appropriate
   level of staffing and focus on all areas of responsibility. The Office consists of
   three functional groups each led by a manager reporting to the Director. In
   addition, the Office is supported by staff members in the Procurement and
   General Counsel offices. As significant milestones in the STAR system
   development are nearing completion, and as the functions performed by the
   District of Columbia Retirement Board (DCRB) are maturing, the Office is
   focused on an evolving oversight role.

2.	 Future Focus

   a. 	 Expanded Oversight of Benefits Administration Activities

   At the end of FY 2005, the benefits administration responsibility transferred from
   the District of Columbia’s Office of Pay and Retirement Services (OPRS) to
   DCRB. As anticipated with the stabilization of operations, DCRB began to
   expand and enhance the quality and nature of the services they provided to both
   the active and retired members of the plans. In response to these changes, the
   Office will expand its oversight and quality program to include the customer
   service arena, additional transaction processing activities, and payroll processing
   services.




                                            25 

E. Ensure quality service to annuitants
1.	 Program Results

   a. 	 Office of D.C. Pensions/District of Columbia Retirement Board 

        Performance Indicators


   In FY 2006, the Office of D.C. Pensions (the Office) and the District of Columbia
   Retirement Board (DCRB) adopted a new set of indicators to measure
   performance. As anticipated, the indicators reflect a balance between accuracy,
   timeliness, quality, and cost effectiveness. The changes in the indicators were
   phased in over the year with the final updates implemented at the end of the fiscal
   year. As desired, the change in focus positively impacted behavior and promoted
   improved business practices. For example, tracking outstanding issues and
   discrepancy reports led to the near elimination of the related inventory.

   b. 	 Stabilization of Benefits Administration Functions

   In FY 2005, the Office led a coordination effort with the Office of Pay and
   Retirement Services (OPRS) and the DCRB to facilitate a smooth transition of
   benefits administration functions for the Police Officers’ and Firefighters’, and
   Teachers’ Retirement Plans from OPRS to DCRB. The transition was effective
   on September 26, 2005. Following the transition, DCRB worked to stabilize
   operations by streamlining processes, adopting new approaches for transferring
   retirement data, updating procedures changed by the transition, and establishing
   working relationships with support organizations.

   c. Annuitant Satisfaction

   With the transition of benefits administration from OPRS to DCRB, the number
   of staff members focused on customer service increased from three staff members
   to five staff members. The customer service team includes three data technicians
   who are responsible for handling the incoming annuitant inquiries and two
   customer service representatives who handle the inquiries the data technicians can
   not address as well as the inquiries from annuitants that walk-in or schedule an
   appointment rather than call in.

   DCRB adopted two tools to help track and monitor the call volume. The
   monitoring system tracks the volume of calls and the availability of the
   representatives to answer the calls. Complimenting the call monitoring system is
   a call tracking system that captures more specific information related to each call
   and caller.

   Annuitant outreach via a survey vehicle was limited as compared to prior years.
   However those annuitants surveyed, indicated that the services provided were




                                           26 

   excellent and that most issues were resolved with a single contact. The annuitants
   were asked to assess the customer service representative’s:

   	   Ability to address the annuitant’s concern
   	   Knowledge of the issue
   	   Level of professionalism

   d. 	 Retirement Plan Information

   Police and Firefighters Summary Plan Description

   In FY 2005, work began to update the Summary Plan Description (SPD) for the
   District of Columbia Police Officers' and Firefighters' Retirement Plan. The SPD
   is designed to provide plan members with accurate and easy to understand
   information about the Retirement Plan. The SPD was last updated in
   October 2002. Some significant changes have occurred to the Plan since that
   time. A revised version is scheduled for release at the end of November 2006.
   The Office led this effort, with input and coordination provided by DCRB and
   several other District stakeholders.

   Post-56 Legislation Communication

   As discussed in section B.1.a., above, in FY 2006, the Office continued to make
   substantial progress in implementing the District of Columbia Military Retirement
   Equity Act of 2003, Pub. L. 108-133. The Office continued to work closely with
   the District to communicate to annuitants a very complex change to their
   retirement plan and their right to purchase retention of credit for their Post-56
   military service. The outreach activities ensured the annuitants received accurate,
   clear and timely information. Due to the volume of activity, a dedicated call
   center and post office box remained in place. As a result of the communications,
   annuitants made fully informed decisions whether to complete a purchase to
   retain credit of their Post-56 military service. At the close of FY 2006, the Office
   ended its two year Post-56 related outreach effort and direct processing of
   purchase of service requests. Future Post-56 communications and service
   purchases will be handled by DCRB as part of regular processing.

2.	 Future Focus

   a. 	 Office of D.C. Pensions/District of Columbia Retirement Board 

        Performance Indicators 


   As noted above in FY 2006, the Office and DCRB adopted a new set of
   performance indicators. In FY 2007, the Office plans to adopt a service level
   agreement (SLA) to compliment the Office’s Memorandum of Understanding
   with the DCRB. The SLA will identify the required services, acceptable quality
   level and monitoring method.



                                            27 

b. Teachers Summary Plan Description

The SPD for annuitants under the District of Columbia Teachers’ Retirement Plan
was last updated in October 2002. In FY 2007, the Office will partner with
DCRB to update the Teachers SPD. A revised version is scheduled for release by
October 2007. DCRB will lead this effort with the support of the Office. In
addition, input will be requested from various District stakeholders.

c. Judges Summary Plan Description

The SPD for annuitants under the District of Columbia Judges’ Retirement Plan
was last updated in October 2002. In FY 2007, the Office will lead the effort to
update the Judges SPD. A revised version is scheduled for release by
October 2007. Input will be requested from D.C. Courts.




                                        28 

IV. Six Year History of the District of Columbia Pensions
    Program
   A. Annuitants
                                     Police Officers’ and Firefighters’,
                                      and Teachers’ Retirement Plans

               16

                                                                                   Police/Fire

                                                                                   Teachers

               14


                             7,825   7,792   7,673    7,639    7,646
               12

                     7,815                                                 The number of annuitants
                                                                           (including survivors) has
                                                                           remained relatively constant over
               10
                                                         recent years.
   Thousands




                8

                                                                              Pension Population
                                                                           Year
          Annuitants
                6

                                                      5,827                2001
          13,146
                             5,396   5,517   5,497             5,805
                     5,331                                                 2002
          13,221
                4

                                                                           2003
          13,309
                                                                           2004
          13,170
                2

                                                                           2005
          13,466
                                                                           2006
          13,451
                0

                     2001    2002    2003     2004     2005     2006





                                       Judges’ Retirement Plan
               80


               70
                                                      77

                                                  69          73

               60
     63
      66      66
                                         The number of
                                                                                    annuitants
                                                                                    (including
               50
                                                                  survivors) has
                                                                                    increased gradually.

               40


               30


               20


               10


                0

                     2001     2002     2003      2004     2005      2006





                                                        29 

     B. Investments

                                           Supplemental, Trust and D.C. Federal Pension Funds’
                                                            Net Investments
                 $4




                                                                                                             3.762




                                                                                                                              3.708
                 $3
                                 2.772



                                                                                                                                        All funds are
                                                                                                                                        invested in non
                                                         2.463                                                                          marketable
Billions




                                                                                                                                        Treasury




                                                                            2.107
                 $2




                                                                                    2.087
                                                                                                                                        securities. The
                                                                                                                                        Supplemental
                                                                  1.738




                                                                                             1.717
                                                                                                                                        and Trust funds
                                                1.402




                                                                                                                                        assets as of
                                                                                                                                        October 1,
                 $1
                        1.095




                                                                                                                                        2004, were
                                                                                                                                        combined to
                                                                                                                                        create the D.C.
                                                                                                                                        Federal Pension
                                                                                                                                        Fund.
                 $0
                                2001                    2002              2003              2004      2005             2006

                                Supplemental Fund                         Trust Fund          D.C. Federal Pension Fund




                                                                   Judicial Retirement Fund
                                                                       Net Investments
                  $120
                                                                                                                     113.9
                  $100
                                                                              107.4
                                                                                       101.9
                                                                          95.8
                                                         90.6
                      $80            86.9                                                                                             All funds are
                                                                                                                                      invested in non
                                                                                                                                      marketable Treasury
      Millions




                                                                                                                                      securities. The fund
                      $60                                                                                                             has grown each year
                                                                                                                                      as contributions and
                                                                                                                                      earnings exceed
                      $40                                                                                                             benefit payments and
                                                                                                                                      administrative
                                                                                                                                      expenses.

                      $20


                       $0
                                         2001              2002            2003             2004     2005            2006





                                                                                       30 

           B.                Investments (continued)

                                                                 Investment Average Annual
                                                                       Rate of Return*
                        6%




                                                                  5.7
                                 5.5




                                                                        5.5
                                        5.4




                                                                               5.4
                        5%


                                               5.1




                                                                                     4.9
                                                     4.9




                                                                                                                       4.7
                                                                                                                             4.5
                                                                                                                                         2001
                        4%
     Rate of Return




                                                                                                                                         2002
                                                                                                                                         2003
                        3%
                                                                                                                                         2004
                                                                                                                                         2005
                        2%                                                                                                               2006

                        1%


                        0%
                                       Supplemental Fund                      Trust Fund            D.C. Federal Pens ion
                                                                                                           Fund**

                      *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                      average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                      premiums and discounts.
                      **The Supplemental Fund and the Trust Fund were combined October 1, 2004, to create the D.C. Federal Pension Fund.




                                                                   Investment Average Annual

                                                                         Rate of Return*

                        7%


                                              6.1          6.0
                        6%                                           5.9              5.7       5.7          5.7
                                                                                                                                        2001
Rate of Return




                        4%                                                                                                              2002
                                                                                                                                        2003
                                                                                                                                        2004
                        3%                                                                                                              2005
                                                                                                                                        2006

                        1%


                        0%
                                                             Judicial Retirement Fund

          *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
          average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
          premiums and discounts.




                                                                                           31
           C. Major Spending Categories

                             Benefits, Refunds, and Administrative Spending Categories

           $600


           $500


           $400
                                                                                               Benefits &
Millions




                                                                                               Refunds
           $300                                                                                Administrative
                                                                                               Expenses*
           $200


           $100


             $0
                      2001       2002       2003       2004        2005      2006
    *Administrative expenses include reimbursement of the District administrative expenses, salaries and
    contract support.




                       Benefits, Refunds and Administrative Spending Categories


             Fiscal            Benefits/     Administration        Benefits and     Administrative
             Year            Refunds Paid     Expenses*            Refunds %         Expenses %


             2001               $423M              $12M                97%               3%

             2002               $444M              $23M                95%               5%

             2003               $455M              $19M                96%               4%

             2004               $462M              $20M                96%               4%

             2005               $464M              $19.5M              96%               4%

             2006               $494M              $18.4M              96%               4%


 *Administrative expenses include reimbursement of the District administrative expenses, salaries and
 contract support.




                                                              32
V. Limitation of the Financial Statements
   The principal financial statements have been prepared to report the financial position
   and results of operations of the Office of D.C. Pensions (the Office), pursuant to the
   requirements of the 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of the Office in
   accordance with U.S. generally accepted accounting principles for federal entities
   and the formats prescribed by the Office of Management and Budget, the statements
   are in addition to the financial reports used to monitor and control budgetary
   resources which are prepared from the same books and records.

   The statements should be read with the realization that they are for a component of
   the U.S. Government, a sovereign entity.

VI. D.C. Retirement Protection Improvement Act of 2004
    – Impact on Financial Statements
   Pursuant to the District of Columbia Retirement Protection Improvement Act of
   2004, Pub. L. 108-489, Treasury established the District of Columbia Teachers,
   Police Officers, and Firefighters Federal Pension Fund (D.C. Federal Pension Fund)
   and merged the assets of the D.C. Federal Pension Liability Trust Fund (the Trust
   Fund) and Federal Supplemental District of Columbia Pension Fund (the
   Supplemental Fund) into the new fund. The budget authority of the Trust Fund and
   the Supplemental Fund was transferred to the D.C. Federal Pension Fund. This
   transfer of budget authority has a significant impact on the presentation of the
   Combined Statements of Budgetary Resources and the Consolidated Statements of
   Financing which are found in Part 3, as noted in footnote (1)(a) to the financial
   statements.




                                              33 

PART 2

 INDEPENDENT AUDITORS’ 

        REPORTS 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury’s
Office of D.C. Pensions (ODCP) as of September 30, 2006 and 2005, and the related consolidated
statements of net cost, changes in net position, and financing, and combined statements of budgetary
resources (hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of ODCP’s management. Our responsibility is to
express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of ODCP’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall consolidated financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of the Treasury’s Office of D.C. Pensions as of
September 30, 2006 and 2005, and its net costs, changes in net position, budgetary resources, and
reconciliation of net costs to budgetary obligations for the years then ended in conformity with U.S.
generally accepted accounting principles.

As discussed in Note 1 to the consolidated financial statements, in fiscal year 2006, ODCP adopted the
provisions of the Federal Accounting Standards Advisory Board’s Statement of Federal Financial
Accounting Standards No. 27, Identifying and Reporting Earmarked Funds.

The information in Part 1, Management’s Discussion and Analysis, is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally accepted
accounting principles or OMB Circular A-136, Financial Reporting Requirements. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the methods
of measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.

                                                                         34
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The information in Part 4, Supplementary Schedules, are also presented for purposes of
additional analysis and are not a required part of the basic financial statements. The supplementary
schedules referred to above have been subjected to the auditing procedures applied in the audits of the
consolidated financial statements and, in our opinion, are fairly stated, in all material respects, in relation to
the consolidated financial statements taken as a whole.

In accordance with Government Auditing Standards, we have also issued our reports dated October 31,
2006, on our consideration of ODCP’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations and contracts. The purpose of those reports is to
describe the scope of our testing of internal control over financial reporting and compliance and the results
of that testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




October 31, 2006




                                                       35

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                           Independent Auditors’ Report on Internal Control


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2006 and 2005 and the related consolidated statements of net cost,
changes in net position, and financing, and the combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements”) for the years then ended, and have issued our report
thereon dated October 31, 2006. That report refers to ODCP’s implementation of a new accounting
standard in fiscal year 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 06-03 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of ODCP is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2006 audit, we considered ODCP’s internal control over financial
reporting by obtaining an understanding of ODCP’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls in order to determine
our auditing procedures for the purpose of expressing our opinion on the consolidated financial statements.
We limited our internal control testing to those controls necessary to achieve the objectives described in
Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal controls relevant
to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to provide an opinion on ODCP’s internal control over financial reporting.
Consequently, we do not provide an opinion thereon.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be material weaknesses under standards issued by
the American Institute of Certified Public Accountants. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements caused by error or fraud, in amounts that would be material
in relation to the consolidated financial statements being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may nevertheless occur and not
be detected. However, we noted no matters involving internal control and its operation that we considered
to be material weaknesses as defined above.

                                                                         36
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
INTERNAL CONTROLS OVER PERFORMANCE MEASURES

Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other controls as
follows. Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that misstatements caused
by error or fraud, in amounts that would be material in relation to a performance measure or aggregation of
related performance measures, may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

Our consideration of the internal control over the design and operation of internal control over the
existence and completeness assertions related to key performance measures would not necessarily disclose
all matters involving the internal control and its operation related to the design and operation of the internal
control over the existence and completeness assertions related to key performance measures that might be
material weaknesses.

As required by OMB Bulletin No. 06-03 in our fiscal year 2006 audit, with respect to internal control
related to performance measures determined by management to be key and reported in Part 1,
Management’s Discussion and Analysis, we obtained an understanding of the design of internal controls
relating to the existence and completeness assertions and determined whether these internal controls had
been placed in operation. We limited our testing to those controls necessary to test and report on the
internal control over key performance measures in accordance with OMB Bulletin No. 06-03. However,
our procedures were not designed to provide an opinion on internal control over reported performance
measures and, accordingly, we do not provide an opinion thereon. In our fiscal year 2006 audit, we noted
no matters involving the design and operation of the internal control over the existence and completeness
assertions related to key performance measures that we considered to be material weaknesses as defined
above.

                                    ______________________________

This report is intended solely for the information and use of ODCP’s management, the U.S. Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2006




                                                      37

                              KPMG LLP
                              2001 M Street, NW
                              Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2006 and 2005, and the related consolidated statements of net cost,
changes in net position, and financing, and combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements”) for the years then ended, and have issued our report
thereon dated October 31, 2006. That report refers to ODCP’s implementation of a new accounting
standard in fiscal year 2006.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 06-03, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 06-03 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement.

The management of ODCP is responsible for complying with laws, regulations, and contracts applicable to
ODCP. As part of obtaining reasonable assurance about whether ODCP’s consolidated financial statements
are free of material misstatement, we performed tests of ODCP’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the consolidated financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 06-03, including certain provisions referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to ODCP. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards and OMB Bulletin No. 06-03.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether ODCP’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.




                                                                        38
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
The results of our tests of FFMIA disclosed no instances in which ODCP’s financial management systems
did not substantially comply with the three requirements discussed in the preceding paragraph.

This report is intended solely for the information and use of ODCP’s management, the U.S. Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2006




                                                  39

PART 3

  FINANCIAL STATEMENTS 

       AND NOTES

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2006 and 2005
(in thousands)


                                                                        2006              2005



Assets
     Entity Assets
          Intra-Governmental Assets
                Fund Balance with Treasury (Note 3)                $          255    $         251
                Investments in GAS Securities, Net (Note 4)             3,821,637        3,869,891
                Interest Receivable from GAS Securities                    40,020           45,650
                Advances to Others                                             40               19
          Accounts Receivable, Net                                         31,569           30,684
          Software-In-Development                                           5,146                -
          ADP Software, Net (Note 5)                                       11,473           17,679
          Equipment, Net (Note 6)                                             151              228
Total Assets                                                       $    3,910,291    $   3,964,402

Liabilities
     Liabilities Covered By Budgetary Resources
            Intra-Governmental
                  Accounts Payable                                 $           68    $         300
                  Accrued Payroll and Benefits                                 16               18
            Accounts Payable                                                6,767            4,058
            Accrued Pension Benefits Payable                               44,288           44,214
            Actuarial Pension Liability (Note 2 (j))                    3,645,440        3,659,529
            Accrued Payroll and Benefits                                      179              294
     Total Liabilities Covered By Budgetary Resources                   3,696,758        3,708,413

     Liabilities Not Covered By Budgetary Resources
          Actuarial Pension Liability (Note 9)                          5,422,271        4,851,716
Total Liabilities                                                       9,119,029        8,560,129

Net Position
     Cumulative Results of Operations - Earmarked                      (5,208,738)       (4,595,727)
Total Net Position                                                     (5,208,738)       (4,595,727)

Total Liabilities and Net Position                                 $    3,910,291    $   3,964,402

The accompanying notes are an integral part of these financial statements.

                                                      40 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2006 and 2005
(in thousands)

                                                         2006                2005


Program Costs
       Administrative Expenses (Note 7)           $         18,422     $       19,525
       Pension Expense (Note 8)                          1,050,791            610,024
Total Program Costs                                      1,069,213            629,549

Less: Earned Revenues
       Interest Earned from GAS Securities                162,688             169,364
       Employee Contributions                                 590                 553
Net Cost of Operations                            $       905,935      $      459,632

The accompanying notes are an integral part of these financial statements.




                                                  41 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2006 and 2005
(in thousands)

                                                                   2006           2005
                                                               Earmarked

Cumulative Results of Operations

     Net Position - Beginning of Year                         $ (4,595,727)   $ (4,420,274)

     Budgetary Financing Sources
         Appropriations Used                                       292,800        284,000

     Other Financing Sources
         Imputed Financing Sources                                     124            179

     Total Financing Sources                                       292,924        284,179

     Net Cost of Operations                                       (905,935)      (459,632)

     Net Change                                                   (613,011)      (175,453)

     Net Position - End of Year                               $ (5,208,738)   $ (4,595,727)

The accompanying notes are an integral part of these financial statements.




                                                  42 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2006 and 2005
(in thousands)

                                                               2006               2005

Budgetary Resources
   Budget Authority                                      $       4,369,353    $    (1,116,334)
   Unobligated Balance - Beginning of Year                         101,069          1,729,937
   Spending Authority from Offsetting Collections                   27,842             21,130
   Recoveries of Prior Year Obligations                              2,449              5,243
   Temporarily Unavailable Pursuant to Public Law               (3,666,340)         1,961,765
   Total Budgetary Resources                             $         834,373    $     2,601,741

Status of Budgetary Resources
    Obligations Incurred                                 $         834,373    $    2,500,672
    Unobligated Balances Available                                       -           101,069
    Total Status of Budgetary Resources                  $         834,373    $    2,601,741

Relationship of Obligations to Outlays
    Obligated Balance, Net - Beginning of Year           $          59,965    $       55,207
    Obligations Incurred                                           834,373         2,500,672
    Recoveries of Prior Year Obligations                            (2,449)           (5,243)
    Obligated Balance, Net - End of Year                           (61,266)          (59,965)

    Outlays
     Disbursements                                                 830,623         2,490,671
     Collections                                                   (27,842)          (21,130)
     Total Outlays                                                 802,781         2,469,541
    Less: Offsetting Receipts                                      204,392           186,411
    Net Outlays                                          $         598,389    $    2,283,130

The accompanying notes are an integral part of these financial statements.




                                                  43 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Financing
For the Years Ended September 30, 2006 and 2005
(in thousands)

                                                                                       2006           2005



Budgetary Resources Obligated
    Obligations Incurred                                                           $   834,373    $   2,500,672
    Less: Spending Authority from Offsetting Collections and Adjustments                30,291           26,373
    Obligations Net of Offsetting Collections and Recoveries                           804,082        2,474,299
    Less: Offsetting Receipts                                                          204,392          186,411
    Net Obligations                                                                    599,690        2,287,888
    Imputed Financing from Costs Absorbed by Others                                        124              179
    Total Resources Used to Finance Activities                                         599,814        2,288,067
Resources Used to Finance Items Not Part of the Net Cost of Operations
    Change in Budgetary Resources Obligated for Goods, Services and
      Benefits Ordered but not yet Provided                                             (1,110)          3,544
    Resources That Fund Expenses Recognized in Prior Periods                               906          14,658
    Resources that Finance the Acquisition of Assets or Liquidation of Liabilities       5,109           4,678
    Other Resources or Adjustments to Net Obligated Resources that do not
      Affect Net Cost of Operations                                                    292,800        1,971,716
Total Resources used to Finance Items not part of the Net Cost of Operations           297,705        1,994,596
Total Resources Used to Finance Net Cost of Operations                                 302,109          293,471
Components Requiring or Generating Resources in Future Periods
    Increase in Exchange Revenue Receivable from the Public                                 20              (3)
    Future Funded Expenses (Note 9)                                                    556,466         143,955
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                           556,486         143,952
Components not Requiring or Generating Resources
    Depreciation and Amortization                                                       29,613           5,269
    Other                                                                               17,727          16,940
Total Components of Net Cost Operations that will not Require or Generate               47,340          22,209
 Resources in Future Periods
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                          603,826         166,161
Net Cost of Operations                                                             $   905,935    $    459,632

The accompanying notes are an integral part of these financial statements.




                                                             44 

Office of D.C. Pensions
Office of the Assistant Secretary for Management
and Chief Financial Officer
Departmental Offices, U.S. Department of Treasury

                                    Notes to Financial Statements

                                         September 30, 2006


       1.	 Reporting Entity

          Under provisions in Title XI of the Balanced Budget Act of 1997, as amended
          (the Act), the Secretary of the Treasury (the Secretary) assumed certain
          responsibilities for a specific population of annuitants under the following District
          of Columbia (District) retirement plans: the Police Officers’ and Firefighters’
          Retirement Plan, the Teachers’ Retirement Plan and the Judges’ Retirement Plan.
          Specifically, the Secretary is responsible for administering the retirement benefits
          earned by District teachers, police officers and firefighters based upon service
          accrued prior to July 1, 1997, and retirement benefits earned by District judges,
          regardless of when service accrued.

          The Secretary’s responsibilities include: (1) making accurate and timely benefit
          payments; (2) investing fund assets; and (3) funding pension benefits. To carry
          out these responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages
          in a wide range of legal, policy and operational activities in the areas of benefits
          administration, information technology, financial management and
          administration. The Office coordinates with many District entities and
          stakeholders to administer its responsibilities.

          The Office reports to the Deputy Assistant Secretary for Human Resources and
          Chief Human Capital Officer (DASHR). The DASHR reports to the Assistant
          Secretary for Management and Chief Financial Officer (ASM/CFO). ASM/CFO
          reports through the Deputy Secretary to the Secretary of the Treasury.

          a.	 District of Columbia Teachers, Police Officers, and Firefighters Federal
              Pension Fund (FY 2006 and 2005)

              Pursuant to the District of Columbia Retirement Protection Improvement Act
              of 2004, Pub. L. 108-489, Treasury established the District of Columbia
              Teachers, Police Officers, and Firefighters Federal Pension Fund (the D.C.
              Federal Pension Fund – 20X5511). The assets and liabilities of the District of
              Columbia Federal Pension Liability Trust Fund (the Trust Fund - 20X8230)
              and the Federal Supplemental District of Columbia Pension Fund (the
              Supplemental Fund – 20X5500) were transferred to the D.C. Federal Pension
              Fund. The D.C. Federal Pension Fund is used for the accumulation of funds
              to finance obligations of the Federal Government for benefits and necessary


                                                   45 

administrative expenses for the Police Officers’ and Firefighters’, and
Teachers’ Retirement Plans under the provisions of the Act. The D.C. Federal
Pension Fund consists of the following:
  	 Amounts deposited from the proceeds of assets transferred from the
     Trust Fund and the Supplemental Fund which included the proceeds of
     assets transferred to Treasury from the District of Columbia Retirement
     Board (DCRB) pursuant to the Act.
  	 Amounts deposited from the General Fund of the Treasury
  	 Income earned on the investments held in the D.C. Federal Pension Fund
  	 Reimbursement and receivables from the D.C. Government for the
     District’s estimated share of benefits paid from the D.C. Federal Pension
     Fund.
The portion of the D.C. Federal Pension Fund that is not needed to meet the
level of current benefit payments, refunds, and administrative expenses is
invested in non-marketable Government Account Series (GAS) securities
issued by the Treasury’s Bureau of the Public Debt (BPD). Investments are
made in securities with maturities suitable to the needs of the D.C. Federal
Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the
D.C. Federal Pension Fund (from the General Fund of the Treasury) an annual
amortization amount. The annual amortization amount, as determined by an
enrolled actuary, is the amount necessary to amortize the original unfunded
liabilities of the retirement programs assumed by the Federal Government
over 30 years, the net experience gains or losses over 10 years, and any other
changes in actuarial liability over 20 years. The amount paid into the D.C.
Federal Pension Fund during FY 2006 and FY 2005 were $285.4 million and
$277.0 million, respectively.

As a result of the 2004 legislation, effective October 1, 2004 (FY 2005), the
budget authority of the Trust Fund and the Supplemental Fund was transferred
to the D.C. Federal Pension Fund. This transfer of budget authority had a
significant impact on the presentation of the Combined Statements of
Budgetary Resources and the Consolidated Statements of Financing.

Budget authority of $1,961,764,884 in the Supplemental Fund was moved to
the D.C. Federal Pension Fund through a non-expenditure transfer. The
transfer impacted two line items on the Combined Statements of Budgetary
Resources. Prior to the legislation, the Supplemental Fund was prohibited by
public law from incurring obligations until the Trust Fund was depleted. The
legislation resulted in a reclassification of the restriction on the availability of
resources from Temporarily Unavailable Pursuant to Public Law to Budget
Authority, but the receipts were unavailable for obligation upon collection,
which reduced Budget Authority.


                                       46 

   Budget authority of $1,687,715,405.03 in the Trust Fund was moved to the
   D.C. Federal Pension Fund through an expenditure transfer. Because the
   “trust” and “special” funds were classified differently, the expenditure transfer
   had a significant impact on both the Combined Statements of Budgetary
   Resources and the Consolidated Statements of Financing. The transfer was
   recognized as a disbursement and accounted for as Obligations Incurred and
   Disbursements on the Combined Statements of Budgetary Resources. This
   disbursement of authority reduced Unobligated Balances Available and
   increased Net Outlays on the Combined Statements of Budgetary Resources.
   This disbursement of authority also had an impact on Obligations Incurred
   and Other Resources or Adjustments to Net Obligated Resources that do not
   affect Net Cost of Operations on the Consolidated Statements of Financing.
   As a result of discussions with OMB regarding the appropriate accounting
   treatment of unused budget authority, OMB directed the Office to reclassify
   Receipts Unavailable for Obligation Upon Collection reported as Budget
   Authority to Receipts and Appropriations Temporarily Precluded From
   Obligation reported as Temporarily Unavailable Pursuant to Public Law on
   the Combined Statement of Budgetary Resources. This reclassification was
   made effective first quarter FY 2006.
b.	 District of Columbia Judicial Retirement and Survivors Annuity Fund
    (FY 2006 and 2005)

   Pursuant to the Act, Treasury established the District of Columbia Judicial
   Retirement and Survivors Annuity Fund (the Judicial Retirement Fund –
   20X8212).
   The Judicial Retirement Fund is used for the accumulation of funds to finance
   obligations of the Federal Government for benefits and necessary
   administrative expenses of the Judges’ Plan under the provisions of the Act.
   The Judicial Retirement Fund consists of the following:
     	 Amounts deposited from the proceeds of assets transferred to Treasury
        from the District of Columbia Retirement Board (DCRB) pursuant to the
        Act
     	 Amounts deposited from the General Fund of the Treasury
     	 Income earned on the investments held in the Judicial Retirement Fund
     	 Employee contributions to the Judicial Retirement Fund
   The portion of the Fund that is not needed to meet the level of current benefit
   payments, refunds and administrative expenses is invested in GAS securities.
   Investments are made in securities with maturities suitable to the needs of the
   Judicial Retirement Fund.



                                        47 

      By the end of each fiscal year, the Act requires the Secretary to pay into the
      Judicial Retirement Fund (from the General Fund of the Treasury) an amount
      equal to the normal cost for the year, an annual amortization amount and the
      covered administrative expenses for the year. The annual amortization
      amount, as determined by an enrolled actuary, is the amount necessary to
      amortize the original unfunded liability of the retirement program assumed by
      the Federal government over 30 years, the net experience gains or losses over
      10 years, and any other changes in actuarial liability over 20 years. The
      annual payment to the Judicial Retirement Fund also includes an amount
      necessary to fund the normal cost of the retirement program not covered by
      employee contributions. The amounts paid into the Judicial Retirement Fund
      during FY 2006 and 2005 were $7.4 million and $7.0 million, respectively.

2. Summary of Significant Accounting Policies

   a. Basis of Accounting and Presentation

      The Office’s financial statements consist of the Consolidated Balance Sheets,
      the Consolidated Statements of Net Cost and Changes in Net Position, the
      Combined Statements of Budgetary Resources and the Consolidated
      Statements of Financing, all of which are prescribed by Office of Management
      and Budget (OMB) Bulletins. The financial statements have been prepared in
      accordance with U.S. generally accepted accounting principles as prescribed
      by the Federal Accounting Standards Advisory Board (FASAB), which is
      designated the official accounting standards setting body of the Federal
      Government by the American Institute of Certified Public Accountants. The
      statements are different from the financial reports, also prepared by the Office,
      pursuant to OMB directives that are used to monitor and control the Office’s
      use of budgetary resources.
   b. Fund Balance with Treasury

      Fund Balance with Treasury represents appropriated funds remaining as of
      fiscal year-end from which the Office is authorized to make expenditures and
      pay liabilities resulting from operational activity, except as restricted by law.
   c. Investments

      Pursuant to the Act and Section 130 of Division A of Pub. L. 105-277 (1998),
      the Secretary invests the portions of the D.C. Federal Pension Fund and the
      Judicial Retirement Fund that are not necessary to meet current obligations, in
      market-based (MK) GAS securities — non-marketable Treasury securities
      that mirror the prices of marketable securities with similar terms, issued and
      redeemed by BPD. Amounts needed to meet current obligations are invested
      in overnight non-marketable par value GAS securities, redeemed at face value
      plus accrued interest.



                                           48 

   The Office follows Treasury investment policy guidelines and determines
   whether the investments should be made in MK bills, notes, or bonds. The
   maturities on investments range from less than one year to approximately
   seven years. Investments are valued at cost, adjusted for unamortized
   premiums and discounts, if applicable. The premiums and discounts are
   recognized as adjustments to interest income, utilizing the effective interest
   method.

d.	 Advances and Prepayments

   The carrying amount of advances and prepayments to the Department of the
   Treasury’s Working Capital Fund approximate fair value as they represent the
   amounts expected to be paid.
e.	 Accounts Receivable, Net

   Accounts receivable consist of: (a) amounts due from the D.C. Government
   for the District’s estimated share of benefits paid by the Office (b) amounts
   due from the D.C. Government for the District’s estimated share of refunds
   paid by the Office, (c) employee retirement contributions withheld from
   judges’ salaries not yet transferred from the General Services Administration
   to the Judicial Retirement Fund before the end of each fiscal year, and (d)
   amounts due from annuitants and survivors as the result of benefit
   overpayments.

f.	 Software-In-Development

   Software-in-development consists of independent contractor costs incurred in
   FY 2006 to develop a new release of the pension/payroll system to support the
   Police Officers’ and Firefighters’, and Teachers’ Retirement Plans.
g.	 ADP Software – Net

   ADP software – net represents the pension benefit and payroll software
   purchased and independent contractor costs (net of amortization) incurred in
   FY 2000 – FY 2005 to develop a pension/payroll system to meet Treasury’s
   and D.C.’s needs. Internal use software is recorded at cost and capitalized in
   accordance with the following thresholds:
     	 Capitalize software acquisitions that exceed $50,000
     	 Capitalize bulk purchases (a single purchase of like items in the same lot
        with a unit cost greater than $5,000 and less than $50,000) that exceed
        $500,000




                                        49 

     	 Capitalize aggregate purchases (multiple purchases of items directly
        related to a specific project and unit cost is less than $50,000) that
        exceed $500,000
   Software is amortized using the straight-line method over an estimated useful
   life of five years, with six months amortization taken in the first and last year.
h.	 Equipment – Net

   Equipment – net represents computer hardware purchases (net of accumulated
   depreciation) placed in service and used to run ADP Software and operation
   of the pension/payroll system. Equipment is recorded at cost and capitalized
   in accordance with the following thresholds:
     	 Capitalize equipment acquisitions that exceed $50,000
     	 Capitalize bulk purchases (a single purchase of like items in the same lot
        with a unit cost greater than $5,000 and less than $50,000) that exceed
        $500,000
     	 Capitalize aggregate purchases (multiple purchases of items directly
        related to a specific project and unit cost is less than $50,000) that
        exceed $500,000
   Equipment is depreciated using the straight-line method over an estimated
   useful life of five years, with six months depreciation taken in the first and last
   year.
i.	 Accrued Pension Benefits Payable

   Accrued pension benefits payable pertains, for the most part, to retirement
   benefits to which the recipients became entitled during the reporting period,
   but which, by law, are paid on the first business day of the subsequent period.
   This accrual may consist of amounts for refund claims for which processing
   was not completed during the reporting period, but will be paid in the
   subsequent period.
j.	 Actuarial Pension Liability

   The actuarial cost method used to determine costs for the Police Officers’ and
   Firefighters’ Retirement Plan, Teachers’ Retirement Plan, and Judges’
   Retirement Plan is the Aggregate Entry Age Normal Cost Method. Under this
   funding method, the normal cost is a level percent of covered salary, which,
   along with the member contributions (under the Judges’ Plan only), will pay
   for projected benefits at retirement for the active plan participants. The level
   percent developed is called the normal cost rate and the product of that rate
   and payroll is the normal cost.




                                         50 

   The actuarial accrued liability is that portion of the present value of projected
   benefits that will not be paid by future normal costs or member contributions.
   The difference between this liability and the funds accumulated at the same
   date is referred to as the unfunded actuarial pension liability. The actuarial
   pension liability is based upon assumptions made by Treasury. The
   assumptions used to calculate the pension liability as of October 1, 2006, were
   an annual rate of investment return of 6% based on the securities held in the
   Judicial Retirement Fund, an annual rate of investment of 4.8% in FY 2007
   based on securities held in the D.C. Federal Pension Fund, gradually
   increasing to 6% by FY 2012; an annual inflation and cost-of-living
   adjustment of 3.5%; and salary increases at an annual rate of 3.5% for judges,
   5.5% for teachers, and 6.5% for police officers and firefighters. The
   assumptions used to calculate the pension liability as of October 1, 2005, were
   an annual rate of investment return of 6% based on the securities held in the
   Judicial Retirement Fund, an annual rate of investment of 4.8% in FY 2006
   based on securities held in the D.C. Federal Pension Fund, gradually
   increasing to 6% by FY 2011; an annual inflation and cost-of-living
   adjustment of 3.0%; and salary increases at an annual rate of 3.5% for judges,
   5.5% for teachers, and 6.5% for police officers and firefighters.
k. Appropriations Received and Used

   Treasury is required to make annual payments from the General Fund of the
   Treasury to the Judicial Retirement Fund and the D.C. Federal Pension Fund
   to amortize the original unfunded liabilities assumed by the Federal
   Government and any subsequent changes in liabilities over a period of time
   and to fund the normal cost of the Judicial Retirement Fund. The
   appropriations are received into the Office’s appropriation funds and are paid
   out to the Judicial Retirement Fund and the D.C. Federal Pension Fund to be
   invested in non-marketable Treasury securities. In accordance with Statement
   of Federal Financial Accounting Standards (SFFAS) No. 7, the payment from
   the Office’s appropriation funds results in an appropriation used, as reported
   in the accompanying Consolidated Statements of Changes in Net Position.
   Appropriations received and used for the years ended September 30, 2006 and
   2005 were $292.8 million and $284.0 million, respectively.
l. Treasury Employee Retirement Plans

   The D.C. Federal Pension Fund and Judicial Retirement Fund pay salaries and
   benefits of Treasury employees who work in the Office as reasonable and
   necessary expenses incurred in carrying out the Secretary’s responsibilities
   under the Act. These salaries and benefits are split 90% and 10% between the
   D.C. Federal Pension Fund and the Judicial Retirement Fund, respectively.
   The Office’s employees participate in the Civil Service Retirement System
   (CSRS) or the Federal Employees Retirement System (FERS). FERS was
   established by Pub. L. 99-335. Pursuant to this law, FERS and Social Security
   automatically cover most employees hired after December 31, 1983.


                                        51 

   Employees hired before January 1, 1984, elected to either transfer to FERS or
   remain in CSRS.

   Most employees are eligible to contribute to the Thrift Savings Plan (TSP).
   For employees participating in FERS, TSP accounts are automatically
   established and the D.C. Federal Pension Fund and the Judicial Retirement
   Fund make mandatory contributions of one percent of the Treasury
   employees’ base pay to the accounts. In addition, the Funds make matching
   contributions, ranging from 1% to 4% of base pay, for FERS eligible
   employees who contribute to their TSP accounts. Pursuant to law, mandatory
   and matching contributions are not made to the TSP accounts established for
   CSRS employees.
   FERS employees and certain CSRS reinstatement employees participate in the
   Social Security program. The D.C. Federal Pension Fund and Judicial
   Retirement Fund remit the employer’s share of the required contributions for
   eligible employees.
   The D.C. Federal Pension Fund and Judicial Retirement Fund do not report
   information pertaining to the CSRS and FERS retirement plans covering
   Treasury employees. The U.S. Office of Personnel Management is
   responsible for reporting amounts such as plan assets, accumulated plan
   benefits, and related unfunded liabilities, if any.
m. President’s Budget

   The FY 2008 Budget of the United States (also known as the President's
   Budget for FY 2008), with actual numbers for FY 2006, was not published at
   the time that these financial statements were issued. The President's Budget
   for FY 2008, which includes the Office’s budget within the Other Independent
   Agencies’ budget appendix, is expected to be published in January or
   February 2007. It will be available from the United States Government
   Printing Office. The FY 2005 Statement of Budgetary Resources (SBR) was
   reconciled to the Program and Financing (P & F) Schedules within the
   President’s Budget for FY 2007 and there were no differences for budgetary
   resources and status of budgetary resources. The reconciliation of net outlays
   did result in a difference. The reason for this difference is that the SBR
   includes offsetting receipts in the net outlay calculation, whereas the
   President’s Budget does not include offsetting receipts in the net outlay
   calculation.

   Earnings on investments in U.S. securities, federal (as reported in the annual
   President’s Budget) consists of interest collected from GAS securities less
   premiums and interest purchased. Interest Earned from GAS Securities (as
   reported in the financial statements) consists of interest earned from GAS
   securities and the amortization of premiums and discounts.




                                       52 

   n. Earmarked Funds

   Funding Sources

   All proceeds received and deposited by the Office of D.C. Pensions are earmarked
   for the purpose of providing annuity payments for retired District of Columbia
   teachers, police officers and firefighters for services earned prior to July 1, 1997
   and for retirement benefits earned by District of Columbia judges, regardless of
   when services were earned.

   Funding for the Judicial Fund is authorized by 111 Stat. 757, Sec. 11251, P.L.
   105-33 as amended by 112 Stat. 2681-534, Sec. 804(a)(4), P.L. 105-277.

   Funding for the D.C. Federal Pension Fund is authorized by 118 Stat. 3967, Sec.
   11084(a), P.L. 105-33 as amended by 118 Stat. 3967, Sec. 2(a), P.L. 108-149.

   Sources of revenue or other financing sources for the years ended September 30,
   2006 and 2005 were annual appropriations, employee contributions, and interest
   earnings from investments.

   Intra-governmental Investments in Treasury Securities

   The Federal Government does not set aside assets to pay future benefits or other
   expenditures associated with earmarked funds. The cash receipts collected from
   the public for an earmarked fund are deposited in the U.S. Treasury, which uses
   the cash for general Government purposes. Treasury securities are issued to the
   Office of D.C. Pensions as evidence of its receipts. Treasury securities are an
   asset to the Office of D.C. Pensions and a liability to the U.S. Treasury. Because
   the Office of D.C. Pensions and the U.S. Treasury are both parts of the
   Government, these assets and liabilities offset each other from the standpoint of
   the Government as a whole. For this reason, they do not represent an asset or a
   liability in the U.S. Government-wide financial statements.

   Treasury securities provide the Office of D.C. Pensions with authority to draw
   upon the U.S. Treasury to make future benefit payments or other expenditures.
   When the Office of D.C. Pensions requires redemption of these securities to make
   expenditures, the Government finances those expenditures out of accumulated
   cash balances, by raising taxes or other receipts, by borrowing from the public or
   repaying less debt, or by curtailing other expenditures. This is the same way that
   the Government finances all other expenditures.

3. Fund Balance with Treasury

   Fund Balance with Treasury and the status of Fund balance with Treasury as of
   September 30, 2006 and 2005, consisted of the following (in thousands):




                                           53 

                                                                        2006                 2005
    Fund balances:
      Trust funds                                              $            15                   25
      Special funds                                                        240                  226
    Total fund balance with Treasury                           $           255                  251



                                                                        2006                 2005
     Status of fund balance with Treasury
       Unobligatedbalance
       unavailable                                             $            —                    —
       Obligatedbalance not yet disbursed                                   255                 251
     Total                                                     $            255                 251


4. Investments in Government Account Series (GAS) Securities– Net
   Investments in GAS securities – net as of September 30, 2006 and 2005 consisted
   of the following (in thousands):

                                                          Premium,        Investments          Market
                                            Cost             Net              Net              Value
  Intragovernmental Securities
     Non-marketable par value          $     145,841              —          145,841              145,841
     Non-marketable market-based           3,574,966          100,830      3,675,796            3,638,277

               Total                   $ 3,720,807            100,830      3,821,637            3,784,118




                                                                        2005
                                                          Unamortized
                                                           Premium,            Investments      Market
                                             Cost             Net                  Net          Value
 Intragovernmental Securities
   Non-marketable par value        $         182,384               —             182,384        182,384
   Non-marketable market-based             3,551,740           135,767         3,687,507      3,684,091
              Total                $       3,734,124           135,767         3,869,891      3,866,475



   The amortization method utilized by the Office is the effective interest method.
   The market value for notes and bonds is calculated using rates for September 30,
   2006 and 2005, as published in the Treasury Quote Sheets prepared by Treasury’s


                                                       54 

   Office of Market Finance. Included in this figure are a net unrealized loss of
   $37.5 million and $3.4 million as of September 30, 2006 and 2005, respectively.

   The amortized cost of non-marketable market-based GAS securities as of
   September 30, 2006 and 2005, by maturity date, are as follows (in thousands):
                                                             2006            2005
   Less than or equal to 1 year                          $    801,288        499,370
   More than 1 year and less than
     or equal to 5 years                                     2,479,909      2,721,258
   More than 5 years and less than
     or equal to 10 years                                     394,599        466,879
                Total                                    $ 3,675,796        3,687,507


5. ADP Software – Net
   The components of ADP software – net as of September 30, 2006 and 2005 are as
   follows (in thousands):
                                                             2006            2005
   ADP software                                  $            30,865          30,902
   Accumulated depreciation                                  (19,392)        (13,223)
   ADP software – net                            $            11,473          17,679


6. Equipment – Net
   The components of equipment – net as of September 30, 2006 and 2005 are as
   follows (in thousands):
                                                               2006            2005
  ADP hardware                                       $               500             500
  Accumulated depreciation                                          (349)           (272)
  Equipment – net                                    $              151             228


7. Administrative Expenses
   Administrative expenses for the years ended September 30, 2006 and 2005 are as
   follows (in thousands):




                                          55 

                                                            2006         2005
 Intragovernmental expenses
    Salaries and related benefits                     $         571          687
    Contractual services                                      2,814        2,249
    Rent                                                      1,279          368
    Other                                                        23           14
         Total intragovernmental expenses             $       4,687        3,318


 Public expenses
   Salaries and related benefits                      $       1,946        2,514
   Contractual services                                       5,502        7,912
   Rent                                                           1            3
   Noncapitalized equipment/software                          6,286        5,752
   Other                                                        —             26
         Total public expenses                        $      13,735       16,207

               Total administrative expenses          $      18,422       19,525



   Included in the above expenses are amounts incurred by the D.C. Federal Pension
   Fund and Judicial Retirement Fund for intra-governmental activity totaling
   $4,207 thousand and $480 thousand, respectively, for 2006, and $2,896 thousand
   and $422 thousand, respectively, for 2005.
8. Pension Expense

   Pension expense for the plan years ended September 30, 2006, and 2005, includes
   the following components (in thousands):
                                                           2006         2005
  Normal cost                                         $      4,700        4,100
  Actuarial (gain)/loss during the period                  645,988      114,789
  Interest on pension liability during the
     period                                                 400,100     490,600
  Collective bargaining agreement                                 3         282
  Longevity pay adjustment                                       —          253
                Total pension expense                 $   1,050,791     610,024


   Federal pension benefits paid during the plan years were $487.6 million and
   $6.6 million from the D.C. Federal Pension Fund and Judicial Retirement Fund,
   respectively, for 2006, and $457.1 million and $6.7 million, respectively, for
   2005. For 2006, approximately $.7 million represents contribution refunds to plan
   participants of the D.C. Federal Pension Fund. For 2005, approximately




                                               56 

   $1.8 million represents contribution refunds to plan participants of the D.C.
   Federal Pension Fund. For FY 2006, the actuarial loss of $646.0 million was
   primarily due to the increase in the actuarial cost-of-living assumption in the two
   funds. For FY 2005, the actuarial loss of $114.8 million was primarily due to the
   lowering of the actuarial investment return assumption in the D.C. Federal
   Pension Fund for FY 2006 – FY 2010.

   Collective Bargaining Agreement (Police Officers)
   On June 7, 2005, the D.C. Council approved annual pay increases retroactive to
   October 1, 2003, for active police officers as contained in a collective bargaining
   agreement. As a result, the annuities for approximately 130 police officers who
   retired after October 1, 2003, had to be recalculated to account for changes in the
   retirees’ final average earnings. In addition, retroactive benefits were also
   calculated. The Office completed the calculation effort in October 2005.
   Beneficiaries and estates of deceased officers who were eligible for the increase
   also received retroactive payments. These payments were processed between July
   and September 2006 as the individuals were identified and located.
   Longevity Pay Adjustment for Police Officers
   As required by District law enacted in 1972, active D.C. police officers receive
   increases in salary reflecting longevity pay adjustments based on length of
   departmental service. Until recently, District law specifically excluded the
   longevity pay adjustment in calculating retirement benefits for annuitants.
   District and federal statutes were enacted in December 1999 and December 2000,
   respectively, requiring the calculation of retirement benefits to include longevity
   pay in the salary at the time of retirement. The federal statute applies to Federal
   Benefit Payments made after December 15, 2000, to annuitants who retired on or
   after August 29, 1972. Therefore, implementation of the federal statute required
   recalculation of initial benefits going back 30 years in some cases. Resolution of
   issues involving the calculation methodology and eligibility for the longevity
   retirement pay adjustment delayed implementation of the District and federal
   statutes. Implementation of the statutes is now complete and longevity is
   included in benefit calculations as individuals retire. Disbursement of longevity
   pay adjustments was completed in FY 2005.

9. Statement of Financing Disclosure

   Liabilities Not Covered by Budgetary Resources of $5,422 million and $4,852
   million as of September 30, 2006 and 2005 represents the portion of the actuarial
   liability that will require resources in a future period (See Note 2j, Actuarial
   Pension Liability). The amounts reported on the Statement of Financing, as
   Future Funded Expenses of $556 million and $144 million for the years ended
   September 30, 2006 and 2005, represent the change in the actuarial liability.




                                           57 

10. Plan Administration and Description

   a. Police Officers’ and Firefighters’ Retirement Plan

      Eligibility
      A participant becomes a member when he or she starts work as a police
      officer or firefighter in the District of Columbia. Police cadets are not eligible
      to join the Plan. A participant’s contribution equals 7% (or 8% for employees
      hired on or after November 10, 1996) of basic pay. Employee contributions
      are made according to the plan adopted by the District of Columbia on
      September 18, 1998. However, the D.C. Federal Pension Fund does not
      receive any employee or employer contributions because pension liability for
      all service accruing on or after July 1, 1997, is the exclusive responsibility of
      the District of Columbia.

      Members (not survivors) who retired prior to February 15, 1980, receive the
      same percentage increase in annuities as active employees’ salary increases.
      Members who retired on or after February 15, 1980 and all survivors receive
      an increase each March based on the annual change in the Consumer Price
      Index for All Urban Consumers (all items – U.S. City Average) from
      December to December.
      Members Hired Before February 15, 1980
      Members are eligible for optional retirement with full benefits at any age with
      20 years of departmental service. The annual basic retirement benefit equals
      2.5% of average pay (basic pay for the highest 12 consecutive months) times
      years of departmental service up to 20 years, plus 3% of average pay times
      years of departmental service over 20 years, plus 2.5% of average pay times
      credited years of service, subject to a maximum benefit of 80% of final pay.
      Members terminated after at least five years of police or fire service are
      entitled to a deferred benefit beginning at age 55 if they do not receive a
      refund of contributions.
      Members with service-related disabilities receive an annuity equal to 2.5% of
      average pay times total years of service, subject to a minimum benefit of
      66.67% of average pay and subject to a maximum benefit of 70% of average
      pay.
      Other members with non-service related disabilities with more than five years
      of departmental service receive an annuity equal to 2% of average pay times
      total years of service, subject to a minimum benefit of 40% of average pay
      and subject to a maximum benefit of 70% of average pay.




                                           58 

Members Hired on or After February 15, 1980, and Before November 10, 1996
Members are eligible for optional retirement with full benefits at age 50 with
at least 25 years of departmental service. The annual basic retirement benefit
equals 2.5% of average pay (basic pay for the highest 36 consecutive months)
times years of departmental service up to 25 years, plus 3% of average pay
times years of departmental service over 25 years, plus 2.5% of average pay
times credited years of service, subject to a maximum benefit of 80% of final
pay. Members terminated after at least five years of police or fire service are
entitled to a deferred pension beginning at age 55 if they do not receive a
refund of contributions.

Members with service related disabilities receive 70% of base pay times
percentage of disability, subject to a minimum benefit of 40% of base pay.

Other members with non-service related disabilities with more than five years
of departmental service receive 70% of base pay times percentage of
disability, subject to a minimum benefit of 30% of base pay.

Members Hired on or After November 10, 1996
Members are eligible for retirement with 25 years of departmental service.
The annual basic retirement benefit equals 2.5% of average pay (basic pay for
the highest 36 consecutive months) times years of departmental and credited
service, subject to a maximum benefit of 80% of basic pay.
Members with service related disabilities receive 70% of base pay times
percentage of disability, subject to a minimum benefit of 40% of base pay.
Other members with non-service related disabilities with more than five years
of departmental service receive 70% of base pay times percentage of
disability, subject to a minimum benefit of 30% of base pay.
Participant Data
For the September 30, 2006, and 2005, actuarial valuations, the participants,
as of June 30, 2006 and 2005, eligible to receive a Federal benefit are as
follows:
                                                  2006            2005
   Active members                                   3,235           3,386
   Retirees and beneficiaries                       7,611           7,664
   Vested terminated members                           72             —
                Total                              10,918          11,050




                                    59 

   Application of Statutory Military Service Provision (Police Officers and
   Firefighters)

   By District law, determination of retirement benefits for District police
   officers and firefighters may include credit for military service performed
   after 1956. However, if the retiree is also eligible for Social Security
   retirement or disability benefits based upon his or her wages and
   self-employment income, the retirement benefit from the District Retirement
   Plan must be recalculated to remove the portion of the benefit derived from
   the military service. Recalculation must occur when the retiree reaches the
   age to begin receiving full Social Security benefits (65+, depending on date of
   birth). Public Law 108-133, enacted on November 22, 2003, permits D.C.
   Police Officers’ and Firefighters’ Retirement Plan members to purchase
   eligible post-56 military service for credit in calculating their retirement
   annuities.

b. Teachers’ Retirement Plan

   Eligibility
   Permanent, temporary, and probationary teachers and certain other employees
   of the D.C. Public Schools become members automatically on their date of
   employment. The basic retirement contribution equals 7% (or 8% for teachers
   hired on or after November 16, 1996) of a participant’s annual pay minus any
   pay received for summer school. Employee contributions are made according
   to the plan adopted by the District of Columbia on September 18, 1998.
   However, the D.C. Federal Pension Fund does not receive any employee or
   employer contributions because pension liability for all service accruing on or
   after July 1, 1997, is the exclusive responsibility of the District of Columbia.
   Voluntary retirement is available for teachers with at least five years of school
   service who have attained age 62; age 60 with 20 years of total service,
   including at least five years of school service; age 55 with 30 years of total
   service, including at least five years of school service; and at any age with 30
   years of total service, including at least five years of school service, if hired by
   the school system on or after November 16, 1996.
   The annuity is equal to 1.5% of three-year average pay times years of service
   up to five years, plus 1.75% of average pay times years of service between
   five and ten years, plus 2% of average pay times years of service over ten
   years. For participants hired on or after November 16, 1996, the annuity is
   equal to 2% of three-year average pay times all years of service.
   Participants who have five years of school service and who have a physical or
   mental disability that prevents them from performing their job, may be
   eligible for disability retirement. Disability benefits are based on the
   voluntary retirement benefit subject to a minimum of the lesser of 40% of



                                         60 

   average pay or the benefit the member would receive using average pay at the
   time of disability with service projected to age 60.
   Employees who are involuntarily separated other than for misconduct or
   delinquency and who have at least five years of school service, may be
   eligible for retirement at any age. The retirement benefit is calculated in the
   same manner as voluntary retirement, except that the involuntary retirement
   benefit is reduced 1/6% per month (2% per year) for each full month the
   teacher is under age 55 at the time of separation from the school system.
   All annuitants receive an annuity increase effective each March 1st based on
   the annual change in the Consumer Price Index for Urban Wage Earners and
   Clerical Workers (all items – U.S. City Average) from December to
   December.
   Participant Data
   For the September 30, 2006, and 2005, actuarial valuations, the participants,
   as of June 30, 2006 and 2005, eligible to receive a Federal benefit are as
   follows:

                                                      2006             2005
       Active members                                   2,534            2,840
       Retirees and beneficiaries                       5,698            5,719
       Vested terminated members                          214               25
                    Total                               8,446            8,584

c. Judges’ Retirement Plan

   Eligibility
   A participant becomes a member of the Plan when he or she becomes a judge
   of the D.C. Court of Appeals or the Superior Court, or when he or she
   becomes the Executive Officer of the District Court System. A participant’s
   contribution equals 3.5% of annual salary plus an optional 3.5% of annual
   salary for survivors’ benefits. The Judicial Retirement Fund receives the
   employee contributions.
   Members are eligible for normal retirement with full benefits at age 50 with at
   least 20 years of judicial service, at age 60 with at least 10 years of judicial
   service (seven years of service for the Executive Officer), or upon reaching
   age 74. The annuity is equal to the basic salary at retirement times the total
   years of judicial service divided by 30, plus 1.5% of basic salary times
   credited service up to five years, plus 1.75% of basic salary times credited
   service between five years and 10 years, plus 2% of basic salary times
   credited service over 10 years, subject to a maximum benefit of 80% of final
   salary at retirement.



                                        61 

A judge electing to retire with at least 10 years of judicial service (at least
seven years if the Executive Officer) but fewer than 20 years of judicial
service between ages 55 and 60 shall receive an annuity based on the above
formula, reduced by 1/12% per month or fraction of a month (1% per year) for
each year the participant is under age 60 at retirement. Judges and the
Executive Officer are eligible for disability benefits after five years of total
service if they have a physical or mental disability that seriously interferes
with the proper performance of duties. The annuity to be received under a
disability retirement will be a normal benefit subject to a minimum benefit of
50% of salary.
All annuitants receive an annuity increase each January based on the annual
change in the Consumer Price Index for Urban Wage Earners and Clerical
Workers (all items – U.S. City Average) from September to September. This
cost of living increase is the same increase provided for annuitants in the
Federal Civil Service Retirement System (CSRS).
Participant Data
For the September 30, 2006, and 2005, actuarial valuations, the participants,
as of June 30, 2006 and 2005, eligible to receive a Federal benefit were as
follows:

                                                    2006            2005
  Active members                                        68               68
  Retirees and beneficiaries                            76               75
  Vested terminated members                             —                 1
                Total                                  144              144




                                    62 

PART 4

  SUPPLEMENTARY 

    SCHEDULES 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2006 and 2005
(in thousands)
                                                                                       2006                                                                  2005
                                                             DC Judicial                                                           DC Judicial
                                                             Retirement                                   Consolidated             Retirement                                   Consolidated
                                                            and Survivors           DC Federal            DC Pension              and Survivors           DC Federal            DC Pension
                                                            Annuity Fund           Pension Fund           Funds Total             Annuity Fund           Pension Fund           Funds Total

Assets
    Entity Assets
         Intra-Governmental Assets
              Fund Balance with Treasury                $               15                     240                    255     $               25                    226                    251
              Investments in GAS Securities, Net                   113,858               3,707,779              3,821,637                107,362               3,762,529              3,869,891
              Interest Receivable from GAS Securities                1,399                  38,621                 40,020                  1,358                  44,292                 45,650
              Advances to Others                                         4                      36                     40                      2                      17                     19
         Accounts Receivable, Net                                        1                  31,568                 31,569                     22                  30,662                 30,684
         Software-In-Development                                        75                   5,071                  5,146                    -                       -                        -
         ADP Software, Net                                             666                  10,807                 11,473                  1,110                  16,569                 17,679
         Equipment, Net                                                 15                     136                    151                     23                    205                    228
Total Assets                                            $          116,033     $         3,794,258    $         3,910,291     $          109,902     $         3,854,500    $         3,964,402

Liabilities
    Liabilities Covered By Budgetary Resources
          Intra-Governmental
               Accounts Payable                         $              23                       45                     68     $              30                      270                    300
               Accrued Payroll and Benefits                             2                       14                     16                     2                       16                     18
          Accounts Payable                                             75                    6,692                  6,767                    58                    4,000                  4,058
          Accrued Pension Benefits Payable                            587                   43,701                 44,288                   396                   43,818                 44,214
          Actuarial Pension Liability                              107,880               3,537,560              3,645,440                101,069               3,558,460              3,659,529
          Accrued Payroll and Benefits                                 18                      161                    179                    31                      263                    294
    Total Liabilities Covered By Budgetary Resources               108,585               3,588,173              3,696,758                101,586               3,606,827              3,708,413

    Liabilities Not Covered By Budgetary Resources
         Actuarial Pension Liability                                37,832               5,384,439              5,422,271                 35,235               4,816,481              4,851,716
Total Liabilities                                                  146,417               8,972,612              9,119,029                136,821               8,423,308              8,560,129

Net Position
    Cumulative Results of Operations - Earmarked                    (30,384)            (5,178,354)             (5,208,738)               (26,919)            (4,568,808)             (4,595,727)
Total Net Position                                                  (30,384)            (5,178,354)             (5,208,738)               (26,919)            (4,568,808)             (4,595,727)

Total Liabilities and Net Position                      $          116,033     $         3,794,258    $         3,910,291     $          109,902     $         3,854,500    $         3,964,402

See accompanying independent auditors' report.


                                                                                           63 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2006 and 2005
(in thousands)
                                                                     2006                                              2005
                                                  DC Judicial                                       DC Judicial
                                                  Retirement                       Consolidated     Retirement                    -   Consolidated
                                                 and Survivors    DC Federal       DC Pension      and Survivors    DC Federal        DC Pension
                                                 Annuity Fund    Pension Fund      Funds Total     Annuity Fund    Pension Fund       Funds Total
Program Costs
      Administrative Expenses                    $       1,185          17,237            18,422   $      1,484          18,041             19,525
      Pension Expense                                   16,200       1,034,591         1,050,791         12,892         597,132            610,024
Total Program Costs                                     17,385       1,051,828         1,069,213         14,376         615,173            629,549

Less: Earned Revenues
      Interest Earned from GAS Securities                5,918         156,770          162,688           5,596         163,768            169,364
      Employee Contributions                               590               -              590             553               -                553
Net Cost of Operations                           $      10,877   $     895,058     $    905,935    $      8,227    $    451,405       $    459,632

See accompanying independent auditors' report.




                                                                            64 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2006 and 2005
(in thousands)
                                                                                 2006                                                                                      2005
                                                        DC Judicial                                                         DC Judicial
                                                        Retirement                               Consolidated               Retirement                         -        Federal             DC Federal            Consolidated
                                                       and Survivors         DC Federal          DC Pension                and Survivors         DC Federal          Supplemental         Pension Liability       DC Pension
                                                       Annuity Fund         Pension Fund         Funds Total               Annuity Fund         Pension Fund        DC Pension Fund          Trust Fund           Funds Total

Cumulative Results of Operations

      Net Position - Beginning of Year             $           (26,919)           (4,568,808)          (4,595,727)     $           (25,710)                    -             2,111,667             (6,506,231)          (4,420,274)

      Budgetary Financing Sources
         Appropriations Used                                     7,400               285,400              292,800                    7,000               277,000                      -                       -            284,000

      Other Financing Sources
          Transfers In/Out Without Reimbursement                        -                    -                    -                         -         (4,394,564)           (2,111,667)             6,506,231                      -
          Imputed Financing Sources                                    12                  112                  124                        18               161                      -                      -                    179

      Total Financing Sources                                    7,412               285,512              292,924                    7,018            (4,117,403)           (2,111,667)             6,506,231              284,179

      Net Cost of Operations                                   (10,877)             (895,058)            (905,935)                   (8,227)            (451,405)                     -                       -           (459,632)

      Net Change                                                 (3,465)            (609,546)            (613,011)                   (1,209)          (4,568,808)           (2,111,667)             6,506,231             (175,453)

      Net Position - End of Year                   $           (30,384)           (5,178,354)          (5,208,738)     $           (26,919)           (4,568,808)                     -                       -         (4,595,727)

See accompanying independent auditors' report.




                                                                                                                65 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statements of Budgetary Resources
For the Years Ended September 30, 2006 and 2005
(in thousands)
                                                                                   2006                                                                                            2005
                                                         DC Judicial                                                            DC Judicial
                                                         Retirement                                    Combined                 Retirement                          -           Federal                 DC Federal              Combined
                                                        and Survivors           DC Federal            DC Pension               and Survivors          DC Federal             Supplemental             Pension Liability        DC Pension
                                                        Annuity Fund           Pension Fund           Funds Total              Annuity Fund          Pension Fund           DC Pension Fund             Trust Fund             Funds Total

Budgetary Resources
   Budget Authority                                 $            21,432              4,347,921              4,369,353      $           19,992             (1,136,326)                       -                          -            (1,116,334)
   Unobligated Balance - Beginning of Year                      101,069                      -                101,069                  96,069              1,961,765               (1,961,765)                 1,633,868             1,729,937
   Spending Authority from Offsetting Collections                    25                 27,817                 27,842                       -                 21,130                        -                          -                21,130
   Recoveries of Prior Year Obligations                              49                  2,400                  2,449                     391                  4,852                        -                          -                 5,243
   Temporarily Unavailable Pursuant to Public Law              (107,880)            (3,558,460)            (3,666,340)                      -                      -                1,961,765                          -             1,961,765
   Total Budgetary Resources                        $            14,695    $           819,678    $           834,373      $          116,452    $           851,421    $                   -     $            1,633,868   $         2,601,741

Status of Budgetary Resources
    Obligations Incurred                            $            14,695                819,678                834,373      $           15,383                851,421                          -                1,633,868             2,500,672
    Unobligated Balances Available                                    -                      -                      -                 101,069                      -                          -                        -               101,069
    Total Status of Budgetary Resources             $            14,695    $           819,678    $           834,373      $          116,452    $           851,421    $                     -   $            1,633,868   $         2,601,741

Relationship of Obligations to Outlays
    Obligated Balance, Net - Beginning of Year      $             1,653                 58,312                 59,965      $            1,359                      -                          -                   53,848                55,207
    Obligations Incurred                                         14,695                819,678                834,373                  15,383                851,421                          -                1,633,868             2,500,672
    Recoveries of Prior Year Obligations                            (49)                (2,400)                (2,449)                   (391)                (4,852)                         -                        -                (5,243)
    Obligated Balance, Net - End of Year                         (1,471)               (59,795)               (61,266)                 (1,653)               (58,312)                         -                        -               (59,965)

    Outlays
     Disbursements                                               14,828                815,795                830,623                  14,698                788,257                          -                1,687,716             2,490,671
     Collections                                                    (25)               (27,817)               (27,842)                      -                (21,130)                         -                        -               (21,130)
     Total Outlays                                               14,803                787,978                802,781                  14,698                767,127                          -                1,687,716             2,469,541
    Less: Offsetting Receipts                                     6,632                197,760                204,392                   5,992                180,419                          -                        -               186,411
    Net Outlays                                     $             8,171    $           590,218    $           598,389      $            8,706    $           586,708    $                     -   $            1,687,716   $         2,283,130

See accompanying independent auditors' report.




                                                                                                                    66 

Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Financing
For the Years Ended September 30, 2006 and 2005
(in thousands)
                                                                                                                2006                                                                      2005
                                                                                          DC Judicial                                                DC Judicial
                                                                                          Retirement                             Consolidated        Retirement                       -            DC Federal            Consolidated
                                                                                         and Survivors       DC Federal          DC Pension         and Survivors       DC Federal               Pension Liability       DC Pension
                                                                                         Annuity Fund       Pension Fund         Funds Total        Annuity Fund       Pension Fund                Trust Fund            Funds Total
Budgetary Resources Obligated
    Obligations Incurred                                                             $            14,695            819,678              834,373             15,383            851,421                    1,633,868             2,500,672
    Less: Spending Authority from Offsetting Collections and Adjustments                              74             30,217               30,291                391             25,982                            -                26,373
    Obligations Net of Offsetting Collections and Recoveries                                      14,621            789,461              804,082             14,992            825,439                    1,633,868             2,474,299
    Less: Offsetting Receipts                                                                      6,632            197,760              204,392              5,992            180,419                            -               186,411
    Net Obligations                                                                                7,989            591,701              599,690              9,000            645,020                    1,633,868             2,287,888
    Transfers In/Out Without Reimbursement                                                             -                  -                    -                  -         (8,193,947)                   8,193,947                     -
    Imputed Financing from Costs Absorbed by Others                                                   12                112                  124                 18                161                            -                   179
    Total Resources Used to Finance Activities                                                     8,001            591,813              599,814              9,018         (7,548,766)                   9,827,815             2,288,067
Resources Used to Finance Items Not Part of the Net Cost of Operations
    Change in Budgetary Resources Obligated for Goods, Services and
      Benefits Ordered but not yet Provided                                                         (368)                (742)            (1,110)               443              9,930                        (6,829)               3,544
    Resources That Fund Expenses Recognized in Prior Periods                                           -                  906                906                  -             14,658                             -               14,658
    Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                    75                5,034              5,109                  -              4,678                             -                4,678
    Other Resources or Adjustments to Net Obligated Resources that do not
      Affect Net Cost of Operations                                                                7,400            285,400              292,800              7,000         (7,869,928)                   9,834,644             1,971,716
Total Resources used to Finance Items not part of the Net Cost of Operations                       7,107            290,598              297,705              7,443         (7,840,662)                   9,827,815             1,994,596
Total Resources Used to Finance Net Cost of Operations                                               894            301,215              302,109              1,575            291,896                            0               293,471
Components Requiring or Generating Resources in Future Periods
    Increase in Exchange Revenue Receivable from the Public                                           20                  -                   20                 (3)                 -                               -                (3)
    Future Funded Expenses (Note 9)                                                                9,409            547,057              556,466              6,357            137,598                               -           143,955
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                                       9,429            547,057              556,486              6,354            137,598                               -           143,952
Components not Requiring or Generating Resources
    Depreciation and Amortization                                                                    594               29,019             29,613                560              4,709                               -              5,269
    Other                                                                                            (40)              17,767             17,727               (262)            17,202                               -             16,940
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Future Periods                                                                         554               46,786             47,340                298             21,911                               -             22,209
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                                      9,983            593,843              603,826              6,652            159,509                               -           166,161
Net Cost of Operations                                                               $            10,877            895,058              905,935              8,227            451,405                               0           459,632

See accompanying independent auditors' report.




                                                                                                                    67 

DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Consolidating Intra-governmental Balances
As of and for the years ended September 30, 2006 and 2005
(in thousands)


                                                                                               2006                                                2005
                                                                            D.C. Judicial                                     D.C. Judicial
                                                                             Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                                            and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
Department            Intra-governmental balance description                Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
             Assets
Treasury     Fund Balance with Treasury                                 $            15            240            255     $            25            226            251
Treasury     Investments in GAS securities, net                                 113,858       3,707,779      3,821,637            107,362       3,762,529      3,869,891
Treasury     Interest receivable from GAS securities                              1,399          38,621         40,020              1,358          44,292         45,650
Treasury     Advances to Others                                                      4                36           40                  2              17             19
                                 Total intra-governmental assets        $       115,276       3,746,676      3,861,952    $       108,747       3,807,064      3,915,811

             Liabilities
Treasury     Accounts Payable                                           $           23                42           65     $            28            253            281
GSA          Accounts Payable                                                       —                  3            3                  2              17             19
Gen Fund     Accrued Payroll and Benefits                                           —                  4            4                  1               4              5
OPM          Accrued Payroll and Benefits                                            2                10           12                  1              12             13
                                 Total intra-governmental liabilities   $            25               59           84     $            32            286            318
             Revenues
Treasury     Interest earned from GAS Securities                        $         5,918         156,770        162,688    $         5,596         163,768        169,364
OPM          Imputed Financing Sources                                              12              112           124                 18             161            179
                                 Total intra-governmental revenues      $         5,930         156,882        162,812    $         5,614         163,929        169,543

             Expenses
Treasury     Salaries and related benefits                              $             2              16            18     $             2             14             16
OPM          Salaries and related benefits                                          44              385           429                 54             479            533
Gen Fund     Salaries and related benefits                                          12              112           124                 14             124            138
Treasury     Contractual Services                                                  290             2,502         2,792               312            1,911          2,223
OPM          Contractual Services                                                    2               20            22                  2              23             25
GPO          Contractual Services                                                   —                —             —                  —                1              1
Treasury     Rent                                                                  128             1,151         1,279                37             331            368
Treasury     Other                                                                   2                21           23                  1              13             14
                                 Total intra-governmental expenses      $           480            4,207         4,687    $           422           2,896          3,318

See accompanying independent auditors' report.

                                                                                            68 

DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Investments in GAS Securities - Net By Fund
As of September 30, 2006 and 2005
(in thousands)

                                                                                2006                                                      2005
                                                                       Unamortized                                               Unamortized
                                                                        Premium     Investments      Market                       Premium      Investments   Market
                                                            Cost          Net           Net          Value           Cost           Net            Net       Value
D. C. Judicial Retirement and Survivors Annuity Fund
Intragovernmental Securities

   Non-marketable Par Value                            $      3,676           -             3,676       3,676    $      4,405           -           4,405       4,405

   Non-marketable Market-based                              108,053         2,129          110,182    110,306         100,497         2,460       102,957     105,481


   Total                                               $    111,729         2,129          113,858    113,982    $    104,902         2,460       107,362     109,886

D.C. Federal Pension Fund
Intragovernmental Securities

   Non-marketable Par Value                            $    142,165           -            142,165    142,165    $    177,979           -         177,979     177,979

   Non-marketable Market-based                             3,466,913       98,701      3,565,614     3,527,971       3,451,243      133,307      3,584,550   3,578,610


   Total                                               $ 3,609,078         98,701      3,707,779     3,670,136   $ 3,629,222        133,307      3,762,529   3,756,589

See accompanying independent auditors' report.




                                                                                    69 

DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Investments in Nonmarketable Market-Based GAS Securities - Net By Fund and Maturity
As of September 30, 2006 and 2005
(in thousands)


                                                                              2006                                                  2005

                                                           D.C. Judicial                                       D.C. Judicial
                                                            Retirement     D.C. Federal     Consolidated        Retirement     D.C. Federal   Consolidated
                                                           and Survivors     Pension        D.C. Pension       and Survivors     Pension      D.C. Pension
                                                           Annuity Fund       Fund          Funds Total        Annuity Fund       Fund        Funds Total
Time of Maturity

Less than or equal to 1 year                           $            -           801,288         801,288    $            -           499,370       499,370

More than 1 year and less than or equal to 5 years               96,479       2,383,430        2,479,909             83,773       2,637,485      2,721,258

More than 5 years and less than or equal to 10 years             13,703         380,896         394,599              19,184         447,695       466,879

Total                                                  $        110,182       3,565,614        3,675,796   $        102,957       3,584,550      3,687,507

See accompanying independent auditors' report.




                                                                                     70 

DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Administrative Expenses - By Fund
For the years ended September 30, 2006 and 2005
(in thousands)


                                                                         2006                                              2005

                                                      D.C. Judicial                                     D.C. Judicial
                                                       Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                      and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                      Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
Intragovernmental Expenses
    Salaries and Related Benefits                 $             58             513            571   $             70             617            687
    Contractual Services                                       292           2,522          2,814                314           1,935          2,249
    Rent                                                       128           1,151          1,279                 37             331            368
    Other                                                        2              21             23                  1              13             14

       Total intragovernmental expenses           $            480           4,207          4,687   $            422           2,896          3,318

Public Expenses
   Salaries and Related Benefits                  $            203           1,743          1,946   $            252           2,262          2,514
   Contractual Services                                          49          5,453          5,502                350           7,562          7,912
   Rent                                                        -                 1              1                -                 3              3
   Noncapitalized Equipment/Software                           453           5,833          6,286                457           5,295          5,752
   Other                                                       -               -              -                    3              23             26

       Total public expenses                      $            705          13,030         13,735   $           1,062         15,145         16,207



       Total administrative expenses              $           1,185         17,237         18,422   $           1,484         18,041         19,525

See accompanying independent auditors' report.




                                                                         71 

DEPARTMENT OF THE TREASURY
DEPARTMENTAL OFFICES
OFFICE OF D.C. PENSIONS
Pension Expense - By Fund
For the years ended September 30, 2006 and 2005
(in thousands)


                                                                         2006                                              2005
                                                      D.C. Judicial                                     D.C. Judicial
                                                       Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                      and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                      Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total

Normal Cost                                       $           4,700           -            4,700    $          4,100            -            4,100
Actuarial (Gains) Losses During the Period                    3,500       642,488        645,988               1,192        113,597        114,789
Interest on Pension Liability During the Period               8,000       392,100        400,100               7,600        483,000        490,600
Collective Bargaining Adjustment                                -               3              3                 -              282            282
Longevity Pension Pay Adjustment                                -             -              -                   -              253            253

Total Pension Expense                             $         16,200      1,034,591       1,050,791   $         12,892        597,132        610,024

See accompanying independent auditors' report.




                                                                          72 

